<html>
<title> - THE DEPARTMENT OF ENERGY FISCAL YEAR 2012 RESEARCH AND DEVELOPMENT BUDGET REQUEST</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  THE DEPARTMENT OF ENERGY FISCAL YEAR
              2012 RESEARCH AND DEVELOPMENT BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2011

                               __________

                            Serial No. 112-4

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-049                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                             March 3, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    13

                                Witness:

Dr. Steven Chu, Secretary, Department of Energy
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    32

Discussion.......................................................    33

             Appendix I: Answers to Post-Hearing Questions

Dr. Steven Chu, Secretary, Department of Energy..................    80

            Appendix II: Additional Material for the Record

Submitted Materials of Ranking Member Johnson, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   282

Submitted Statement of Representative Jerry Costello, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   286


  THE DEPARTMENT OF ENERGY FISCAL YEAR 2012 RESEARCH AND DEVELOPMENT 
                             BUDGET REQUEST

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

               The Department of Energy Fiscal Year 2012

                    Research and Development Budget

                        thursday, march 3, 2011
                              10:00-12:00
                   2318 rayburn house office building

                                PURPOSE

    On Thursday, March 3, 2011, the Committee on Science, Space, and 
Technology will hold a hearing entitled ``The Department of Energy 
Fiscal Year 2012 Research and Development Budget.'' The purpose of the 
hearing is to receive testimony from the Secretary of Energy on the 
President's Fiscal Year (FY) 2012 budget request for energy research 
and technology development programs at the Department, including 
activities under the Office of Science, Energy Efficiency and Renewable 
Energy, Advanced Research Projects Agency-Energy, Fossil Energy, 
Nuclear Energy, Electricity Delivery and Energy Reliability, and the 
Loan Guarantee Program Office.

                                WITNESS

    Dr. Steven Chu, U.S. Secretary of Energy. Dr. Chu was confirmed as 
the 12th Secretary of Energy on January 20, 2009. Prior to his 
appointment Dr. Chu was the Director of DOE's Lawrence Berkeley 
National Laboratory, and a professor of Physics and Molecular and Cell 
Biology at the University of California. He was the co-winner of the 
1997 Nobel Prize for Physics.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               BACKGROUND

    The Department of Energy (DOE) funds a wide range of research, 
development, demonstration, and commercial application activities. 
DOE's primary mission is to ``advance the national economic, and energy 
security of the United States; to promote scientific and technological 
innovation in support of that mission; and to ensure the environmental 
cleanup of the national nuclear weapons complex.'' \1\ In order to 
fulfill its mission, DOE operations are guided by five strategic 
themes: energy security, nuclear security, scientific discovery and 
innovation, environmental responsibility, and management excellence.
---------------------------------------------------------------------------
    \1\ All DOE mission statement quotes come from the cited office's 
website.
---------------------------------------------------------------------------
    The overall FY 2012 budget request for DOE is $29.5 billion, which 
represents a $3.1 billion or 11.8 percent increase over FY 2010 levels. 
Approximately one third of this amount is dedicated to programs within 
the Committee on Science, Space, and Technology's jurisdiction. The 
balance of DOE's funding is allocated to the National Nuclear Security 
Administration (NNSA), to maintain our stockpile of nuclear weapons, 
and Defense and Non-Defense Environmental Management (EM) programs, to 
manage the cleanup of nuclear weapons production and government-
sponsored nuclear energy research.

                      DOE R&D PROGRAMS AND OFFICES

Office of Science

    The total FY 2012 budget request for the Office of Science (SC) is 
$5.4 billion, a $452 million or 9.1 percent increase over the FY 2010 
levels. The mission of the Office of Science is the delivery of 
scientific discoveries, capabilities, and major scientific tools to 
transform the understanding of nature and to advance the energy, 
economic, and national security of the United States. In support of 
this mission, SC supports basic research in the following areas: 
advanced scientific computing, basic energy sciences, biological and 
environmental research, fusion energy sciences, high energy physics, 
and nuclear physics. SC's operations take place in three main areas: 
selection and management of research; operation of world-class, state-
of-the-art scientific facilities; and design and construction of new 
facilities. SC also supports several ongoing interagency initiatives 
such as the Networking and Information Technology Research and 
Development program; the National Networking Initiative; the United 
States Global Change Research Program; and the Climate Change 
Technology Program. SC provides 45 percent of Federal support of basic 
research in the physical sciences and key components of the Nation's 
basic research in biology and high-end computing.
    Office of Science budget and activities are divided into the 
following six major program areas:

    Basic Energy Sciences (BES) requests $1.99 billion, an increase of 
$386 million (or 24.1 percent) over FY 2010 levels. BES supports basic 
research into the fundamental building blocks necessary for advancing 
new energy technologies, and maintains world-class research facilities 
to develop new knowledge and facilitate advances in areas such as 
materials science and chemistry.. The FY 2012 budget reiterates the FY 
2011 request for $34 million to fund a new Batteries and Energy Storage 
Energy Innovation Hub. Additionally, the existing Fuels from Sunlight 
Hub requests $24.3 million.
    In order to realize significant research gains and advance new 
research methodology, in 2009 BES initiated the creation of Energy 
Frontier Research Centers (EFRCs.) EFRCs are individually funded 
between $2-5 million per year to conduct focused research from a small 
team to solve ``grand challenges'' associated with disruptive 
scientific advances. DOE requests continued funding of all 46 existing 
EFRCs in FY 2012.
    Biological and Environmental Research (BER) requests $717.9 million 
in the President's budget, which is $129.9 million (22.1 percent) over 
FY 2010 funding. BER examines fundamental biological systems, climate, 
and environmental sciences. Specifically, BER researches genomics, 
drivers of climate change, and deeper environmental issues. The request 
also includes support for the three DOE Bioenergy Research Centers, the 
Joint Genome Institute, and Environmental Molecular Sciences 
Laboratory.
    BER is also a major contributor to the Intergovernmental Panel on 
Climate Change (IPCC) by providing expertise in climate modeling and 
simulations. The FY 2012 budget request includes notable funding 
increases for BER given pending work on the IPCC's Fifth Assessment.
    The budget would provide $465.6 million for Advanced Scientific 
Computing Research (ASCR), an increase of $82.4 million (21.5 percent) 
over FY 2010 levels. A sizable portion of the increase is slotted for 
National Leadership Computing Facilities, the nation's most powerful 
open resource for capability computing located at Oak Ridge National 
Laboratory and Argonne National Laboratory. Continued investigation of 
a potential exascale computing project to increase computational 
capacity by a thousand-fold accounts for the remainder of the requested 
additional funds.
    The request for Fusion Energy Sciences (FES) is $399.7 million, a 
decrease of $18 million (4.3 percent) below FY 2010 funding. FES 
supports research to improve fundamental understanding of matter at 
very high temperatures and densities needed to develop fusion energy. 
The contribution to the international ITER project, a partnership to 
demonstrate the first fusion prototype, would be reduced by $30 
million.
    The FY 2012 funding request for High Energy Physics (HEP) is $797.8 
million, a $6.4 million (0.8 percent) increase from the enacted FY 2010 
level. HEP probes the basic relationship between space and time, the 
elementary constituents of matter and energy, and the interactions 
between them. This effort is concentrated on three scientific 
frontiers: the energy frontier, the intensity frontier, and the cosmic 
frontier.
    Nuclear Physics (NP) would receive $605.3 million, an increase of 
$82.8 million (15.9 percent) over FY 2010 funding. This program 
supports research to discover and understand various forms of nuclear 
matter. It also supports the production and development of techniques 
to make isotopes that are in short supply for medical, national 
security, environmental, and other research applications.

Energy Efficiency and Renewable Energy

    The mission of the Office of Energy Efficiency and Renewable Energy 
(EERE) is to ``strengthen the United States' energy security, 
environmental quality, and economic vitality in public-private 
partnerships.'' EERE supports this mission statement by: ``Enhancing 
energy efficiency and productivity; bringing clean, reliable and 
affordable energy technologies to the marketplace; and making a 
difference in the everyday lives of Americans by enhancing their energy 
choices and their quality of life.'' EERE participates in many 
crosscutting activities with other departments, as well as within DOE 
offices, including collaborations with the Office of Science, the 
Advanced Research Projects Agency - Energy, Office of Electricity, 
Fossil Energy, Federal Energy Management Program, and the Loan 
Guarantee Program Office.
    The Administration's budget request of $3.2 billion for EERE 
represents a $958 million (44.4 percent) increase over FY 2010 levels. 
This reflects the President's call in his State of the Union speech for 
increased spending on clean energy technologies. The budget requests 
significant funding increases for most EERE programs relative to the 
FY10 enacted level. Additionally, EERE is increasing the number of 
staff in their Washington, DC headquarters, while decreasing field 
FTEs.
    The proposed funding for the Solar Energy program is $457 million, 
an increase of $213.6 million (87.8 percent) over FY 2010 levels. This 
request intends to fund the ``SunShot'' initiative recently proposed by 
the Administration. As a part of this initiative, EERE is advancing a 
``Dollar-a-Watt'' program to make solar energy to be cost-competitive 
with fossil fuels without subsidies. To achieve this goal, solar 
generation needs to reach a four to five cents/kWh equivalent installed 
price for solar photovoltaics (PV) energy by 2020, or reduce the 
installed cost of solar electricity by approximately 75 percent from 
current costs. Accordingly, an overwhelming percentage of solar 
energy's increased funding is directed to the PV subprogram. EERE will 
also continue to fund the Concentrating Solar Power (CSP) subprogram 
for further research in CSP development and thermal storage activities. 
As a means to accelerate widespread market adoption of solar energy, 
the program also seeks to improve applicable local codes, permitting, 
education and training.
    The FY 2012 funding request for the Wind Energy program is $126.9 
million, an increase of $47.8 million (60.6 percent) over FY 2010 
levels. The request continues funding a demonstration project to 
develop offshore wind technology, and aims to address financial, 
regulatory, technical, environmental, and social issues associated with 
offshore wind.
    The FY2012 Biomass and Biorefinery Systems budget request is $340.5 
million, an increase of $124.3 million (57.5 percent) over the FY 2010 
level. This program aims to develop and transform domestic, renewable, 
and abundant biomass resources into cost-competitive, high performance 
biofuels, biopower, and bioproducts through targeted planning, 
research, development and demonstration. In FY 2012, funding for 
feedstock production trials will be eliminated. The elimination is 
offset by a major increase of $150 million to expand the Cellulosic 
Biofuels Reverse Auction with the intention of rapidly injecting money 
into the emerging cellulosic biofuels industry. Support for integrated 
biorefinery projects also notably decreases with increased focus on R&D 
for downstream deployment efforts.
    The proposed funding level for the Geothermal Technology program is 
$101.5 million, an increase of $58.4 million (135.5 percent) over 
FY2010. This program seeks to broaden its focus to include technologies 
with a near-term impact by confirming undiscovered hydrothermal 
resources with innovative exploration technologies. Additionally, the 
Enhanced Geothermal Systems subprogram is aiming to advance new 
technologies to use waste carbon dioxide to capture heat and make 
electricity.
    The Administration's budget request provides a total of $38.5 
million for the Water Power program, which is a $10.2 million (20.9 
percent) decrease from FY 2010 enacted levels. The program funds 
incremental hydropower development and demonstrates marine and 
hydrokinetic (MHK) technologies. The funding will support full-scale 
MHK open water demonstration projects to establish the baseline cost of 
MHK generated electricity by 2013.
    The Hydrogen and Fuel Cell Technologies (HFCT) program requests 
$100.5 million; a $70 million or 41 percent decrease from FY 2010 
levels. The decrease reflects EERE refocusing of specific R&D on fuels 
cells for stationary, transportation and portable power applications.
    The budget request for the Buildings Technologies Program (BTP) is 
$470.7 million, a $252 million (114.9 percent) increase over FY 2010 
levels. BTP supports efforts to improve the energy efficiency of new 
and existing homes and buildings primarily through advanced building 
technologies, controls, systems, and whole-building design; 
demonstration of integrated approaches for construction; bringing 
transformational tools to the market place; supporting the ENERGY STAR 
program; supporting the adoption, training, and enforcement of building 
codes; and promulgating and finalizing efficiency standards as required 
by law. The Energy Efficient Buildings Systems Design Hub is 
administered by BTP.
    BTP's FY 2012 request includes the President's new Better Buildings 
Initiative, which aims to achieve a 20 percent improvement in 
commercial building energy efficiency by 2020. In addition to increased 
R&D funding for building technologies, the initiative includes new tax 
incentives for commercial building energy efficiency projects and 
financing opportunities for state and municipal governments through the 
``Race to the Green'' competitive grant program. The initiative would 
also receive funding from the Loan Guarantee Program Office.
    TheVehicle Technologies Program (VTP) requests $588 million, an 
increase of $283 million (93 percent) over the FY 2010 level. The 
increase reflects an emphasis on the development and deployment of 
plug-in hybrid vehicles (PHEVs). Specifically, in support of the 
President's goal to place one million electric vehicles on the road by 
2015, VTP is requesting $229 million proposing to fund infrastructure 
development for transportation electrification, including a major new 
program of grants to communities for upgrading electric vehicle 
infrastructure.
    The Industrial Technologies Program (ITP) request is $319.8 
million, an increase of $225.5 million (239.2 percent) over FY2010 
levels. ITP seeks to revolutionize industry's energy and carbon 
intensity by developing manufacturing technologies, materials, and 
clean energy manufacturing capacity. The Next Generation Materials and 
Next Generation Manufacturing Processes subprograms are both 
drastically increased to assist in attaining this goal. Additionally, 
the request proposes the creation of an Energy Innovation Hub on 
critical materials. A new $50 million Energy Efficiency Partnership is 
included to assist industry incorporation of energy efficient 
technologies into existing facilities.

The Advanced Research Projects Agency -Energy (ARPA-E)

    The Administration requests $650 million for the Advanced Research 
Projects Agency - Energy (ARPA-E).
    Established in 2007 by the America COMPETES Act (P.L.110-69), ARPA-
E is statutorily charged with developing energy technologies that 
result in ``(i) reductions of imports of energy from foreign sources; 
(ii) reductions of energy-related emissions, including greenhouse 
gases; and (iii) improvement in the energy efficiency of all economic 
sectors.'' Initially provided with $400 million in American Recovery 
and Reinvestment Act (ARRA) (P.L.111-5) funding, ARPA-E did not receive 
a direct appropriation in FY10, though it was the beneficiary of a $15 
million transfer from the Office of Science.
    Of the $650 million request, $550 million would be provided through 
discretionary funding for the purpose of sponsoring additional rounds 
of project funding. Potential funding areas include stationary power, 
electrical infrastructure, end use efficiency, embedded efficiency, and 
transportation systems.
    ARPA-E would also administer an additional $100 million Wireless 
Innovation Fund (WIN) aimed at developing clean-energy wireless 
technologies, paid for through a proposed transfer of wireless spectrum 
auction revenues. The Administration proposes to establish WIN as a 
mandatory program. In 2010, ARPA-E issued $207.6 million in ARRA funds 
for 85 projects. The six program areas funded in 2010 included 
Electrofuels, Batteries for Electrical Energy Storage in Transportation 
(BEEST), Innovative Materials & Processes for Advanced Carbon Capture 
Technologies (IMPACCT), Grid-Scale Rampable Intermittent Dispatchable 
Storage (GRIDS), Agile Delivery of Electrical Power Technology (ADEPT), 
and Building Energy Efficiency Through Innovative Thermodevices (BEET-
IT).Fossil Energy R&D
    The DOE Office of Fossil Energy (FE) supports R&D focused on coal 
(including clean coal technologies), gas, and petroleum and also 
supports the Federal government's Strategic Petroleum Reserve. The 
President's total budget request for FE is $520 million. Of that, FE's 
R&D budget is $453 million, a decrease of $206 million (31.3 percent) 
below FY10 enacted levels. Coal R&D is funded at $291 million, the bulk 
of which focuses on advancing carbon capture and sequestration (CCS) 
efforts. Carbon capture research reprioritizes research from pre-
combustion capture towards post-combustion technologies with the 
intention of advancing the development of commercial technology. The 
Carbon Storage subprogram is conducting large-volume injection testing 
to examine the feasibility of long-term carbon storage. The Hydrogen 
from Coal, Coal to Coal Biomass to Liquids, and Solid Oxide Fuel Cells 
subprograms are all eliminated.
    The FY12 budget request proposes to terminate the Natural Gas 
Technologies and Unconventional Fossil Energy Technologies programs, 
including the elimination of $50 million for the Ultra-Deep and 
Unconventional Natural Gas Other Petroleum Resources Research Program.

Nuclear Energy (NE)

    The primary mission of the Office of Nuclear Energy (NE) is to 
``advance nuclear power as a resource capable of meeting the Nation's 
energy, environmental, and national security needs by resolving 
technical, cost, safety, proliferation resistance, and security 
barriers through research, development, and demonstration as 
appropriate.''
    The FY12 budget request for NE R&D is $447.4 million, a $39.6 
million (8.1 percent) decrease below FY 2010 levels. Approximately 74 
percent of that request would be dedicated to the Fuel Cycle R&D and 
Reactor Concepts RD&D programs. The Fuel Cycle R&D program conducts 
research on the three basic fuel cycle technologies: once-through, 
modified-open, and full recycle. The Reactor Concepts RD&D program 
continues previous activities undertaken by the Generation IV Nuclear 
Energy Systems program, including the Next Generation Nuclear Plant 
project. In addition, advanced Small Modular Reactor (SMR) designs 
would be examined.
    As reflected in the Administration's FY 2011 budget request, NE 
proposes to create the Nuclear Energy Enabling Technologies (NEET) 
program. The $97.3 million program would investigate crosscutting 
technologies and transformative breakthroughs applicable to multiple 
reactor concepts and fuel cycle technologies. NEET would also support 
the Modeling and Simulation Energy Innovation Hub, which seeks to 
create a ``virtual'' reactor by applying existing modeling and 
simulation capabilities. This would utilize modeling as a means to 
improve efficiency in existing reactors as well as inform new reactor 
designs.
    The budget also proposes a SMR Licensing Technical Support Program 
to partner with industry to accelerate development and licensing of 
SMRs necessary for commercial deployment.

Electricity Delivery and Energy Reliability

    The mission of the Office of Electricity Delivery and Energy 
Reliability (OE) is to ``lead national efforts to modernize the 
electric grid; enhance security and reliability of the energy 
infrastructure; and facilitate recovery from disruptions to energy 
supply.'' Research and development within OE is funded at $193 million 
in the President's FY12 budget request. This reflects an increase of 
$71.4 million (58.8 percent) over FY10 levels.
    OE's R&D programs focus on clean energy transmission and 
reliability, smart grid R&D, energy storage, and cyber security for 
energy delivery systems. OE concentrates on potential strains on the 
electric system as electric generation shifts towards low-carbon energy 
sources, specifically associated intermittency problems from wind and 
solar generation. The effects will require advanced grid modeling and 
extensive technological breakthroughs in energy storage. The President 
requests $20 million for the creation of a Smart Grid Technology and 
Systems Hub to be administered by OE within the Clean Energy 
Transmission and Reliability subprogram.
    Also highlighted within the OE request is $57 million for the 
Energy Storage subprogram, a 319 percent increase above the FY 2010 
level to support demonstrations for a new suite of grid level storage 
projects and further testing on prototype materials.

Loan Guarantee Program Office

    The President's FY12 budget request for DOE's Loan Guarantee 
Program Office (LPO) is $200 million. Funds would be used as a credit 
subsidy for loans authorized under Section 1703 of the Energy Policy 
Act of 2005. The LPO did not receive an appropriation for credit 
subsidies in FY10. This level of appropriation would support an 
estimated $1 to $2 billion in loan guarantees to support energy 
efficiency and renewable energy activities.
    Since its creation, the LPO has awarded over $17.6 billion for 18 
projects, in a wide variety of areas such as solar and wind power 
generation and manufacturing, geothermal energy, and electricity 
transmission and energy storage.
    In addition to the Title 17 loan guarantees, the President is 
requesting $105 million to create a Better Building Pilot Loan 
Guarantee Initiative for Universities, Schools, and Hospitals. This new 
program would fund loan guarantees to retrofit commercial buildings and 
would subsidize up to $2 billion in total loan principal.
Energy Innovation Hubs

    The FY12 budget request proposes funding of $146 million for 
support six Energy Innovation Hubs, which are supported through the SC, 
EERE, and NE accounts. This would support the three existing Hubs and 
as well as the creation of three new Hubs, which the President 
highlighted in his recent State of the Union address. According to the 
Administration, Hubs are funded at approximately $25 million each 
annually and area intended to ``advance highly promising areas of 
energy science and engineering from the early stage of research to the 
point where the technology can be handed off to the private sector.'' 
\2\
---------------------------------------------------------------------------
    \2\ http://www.energy.gov/hubs/
---------------------------------------------------------------------------
    Existing Hubs include Fuels from Sunlight ($24.3 million, 
administered by the Office of Science, Basic Energy Services), Modeling 
& Simulation for Nuclear Reactors ($24.3 million, administered by the 
Office of Nuclear Energy), and Energy Efficient Building Systems 
Regional Innovation Cluster Initiative ($24.3 million, administered by 
EERE, Building Technologies Program)The newly proposed Hubs are 
Batteries and Energy Storage ($34 million, administered by the Office 
of Science, Basic Energy Sciences), Smart Grid Technology and Systems 
($19.4 million, administered by OE, Clean Energy Transmission and 
Reliability Program), and Critical Materials ($20 million administered 
by EERE, Industrial Technologies Program).
    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. Good morning to all of you, and 
welcome to today's hearing entitled ``The Department of 
Energy's Fiscal Year 2012 Research and Development Budget 
Request.'' In front of all of us are packets containing the 
written testimony, a biography and truth in testimony 
disclosure for today's witness, Energy Secretary Steven Chu. I 
want to welcome everyone here today for this hearing on the 
President's fiscal year 2012 budget request. Is everybody ready 
to roll? I will recognize myself for five minutes for an 
opening statement. I will take less than five minutes. We don't 
hold you to five minutes. We appreciate you being here very 
much, and you may want to enlarge on some things and you may 
not want to. That will be your decision.
    I want to welcome everyone here today for the hearing on 
the President's fiscal year 2012 budget request for the 
Department of Energy. Now, this is the third time that 
Secretary Chu has appeared before this Committee, and I want to 
thank you and I want to thank all of you for your willingness 
to be here and meet with members on Department of Energy 
programs and priorities. This is also the third DOE budget that 
the President sent to Congress, so it is general priorities and 
our concerns with them should come as no surprise.
    What is notable, however, is the degree to which the 
President is what I guess in a poker game you would call it 
double down, on his energy and climate agenda in light of the 
continued struggle in the economy, trillion-dollar deficits, 
rising gas prices and fuel supply concerns driven by Middle 
East turmoil.
    The centerpiece of this legislation is the President's 
proposed requirement that the United States produce 80 percent 
of its electricity from ``clean'' sources by 2035. While I want 
to better understand how the Administration intends to reach 
this goal, and while I strongly support an ``all of the above'' 
approach to energy security, I am concerned that the plan 
entails spending that we really can't afford and taxes and 
regulations that would severely raise the cost of energy and 
harm, in my opinion and a lot of our opinions, our economy.
    The merits of this proposal seem weakened further by the 
fact that even if such a transition to clean electricity were 
successful, its benefits in terms of the effect it could have 
on climate change appears negligible.
    My concerns regarding misplaced energy policy priorities 
extend to the R&D budget as well. The fossil fuels that drive 
our economy and meet over 80 percent of our energy needs 
continue to be penalized in favor of cleaner alternatives, but 
that seems to continue. For example, the natural gas and 
unconventional fossil fuels technology programs are zeroed out 
while energy efficiency and renewable energy R&D programs would 
receive $1 billion, or a 44 percent increase above current 
levels. And these increases come on the heels of over $16 
billion in stimulus funding and a near doubling of the EERE 
base budget since fiscal year 2006. I am also concerned that 
much of the clean energy spending is focused on late-stage 
technology development and commercialization more appropriately 
performed by the private sector.
    The changes called for in this budget are not just trends, 
they represent dramatic shifts that warrant our close review 
and consideration in the coming weeks and months. While I have 
many concerns, I look forward to working with the Secretary, 
Ranking Member Mrs. Johnson and members of the committee to 
develop a thorough and constructive response to these 
proposals.
    [The prepared statement of Chairman Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    I want to welcome everyone here today for this hearing on the 
President's Fiscal Year 2012 budget request for the Department of 
Energy.
    This is the third time that Secretary Chu has appeared before this 
Committee, and I want to thank him for his willingness to be here and 
meet with our Members on Department of Energy programs and priorities.
    This is also the third DOE budget that the President has sent 
Congress, so its general priorities-and my concerns with them-should 
come as no surprise.
    What is notable, however, is the degree to which the President has 
``doubled-down'' on his energy and climate agenda in light of the 
continued struggling economy, trillion-dollar deficits, rising gas 
prices, and fuel supply concerns driven by Middle East turmoil.
    The centerpiece of this agenda is the President's proposed 
requirement that the U.S. produce 80 percent of its electricity from 
``clean'' sources by 2035. While I want to better understand how the 
Administration intends to reach this goal, and while I strongly support 
an ``all-of-the-above'' approach to energy security, I'm concerned that 
this plan entails spending we can't afford and taxes and regulations 
that would raise the cost of energy and harm our economy.
    The merits of this proposal seem weakened further by the fact that, 
even if such a transition to ``clean'' electricity were successful, its 
benefits in terms of the effect it could have on climate change appears 
negligible.
    My concerns regarding misplaced energy policy priorities extend to 
the R&D budget as well. The fossil fuels that drive our economy and 
meet over 80 percent of our energy needs continue to be penalized in 
favor of ``cleaner'' alternatives.
    For example, the Natural Gas and Unconventional Fossil Energy 
Technologies programs are zeroed out while energy efficiency and 
renewable energy R&D programs would receive a $1 billion, or 44 
percent, increase above current levels. And these increases come on the 
heels of over $16 billion in Stimulus funding and a near-doubling of 
the EERE base budget since FY 2006. I'm also concerned that much of 
this ``clean energy'' spending is focused on late-stage technology 
development and commercialization more appropriately performed by the 
private sector.
    The changes called for in this budget are not just trends-they 
represent dramatic shifts that warrant our close review and 
consideration in the coming weeks and months.
    While I have many concerns, I look forward to working with the 
Secretary, Ranking Member Johnson, and members of the Committee to 
develop a thorough and constructive response to these proposals.
    I now recognize Ranking Member Johnson for five minutes for an 
opening statement.

    Chairman Hall. I now recognize the Ranking Member, Mrs. 
Johnson, for as long as she takes for an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and welcome 
back to the Committee, Dr. Chu.
    We are here today to discuss the President's fiscal year 
2012 budget request for the Department of Energy, even though 
as the fiscal year 2011 budget still dominates the attention of 
the Congress. For both budget years and likely for years to 
come, the issue remains the same: While we must be fiscally 
responsible, we also must keep America competitive and create a 
better future for the American people.
    I agree with Chairman Hall. We are in a dangerous position 
as it relates to our national deficit. As any responsible 
American family would do, we have to reconcile how much money 
the government spends and what it brings in. But we are also in 
danger of jeopardizing our standard of living and our future if 
we allow good programs to fall victim to indiscriminate cuts. 
It is time to set priorities and make choices that do not leave 
our workforce ill-prepared and hamper the country's ability to 
innovate and grow.
    If a family's budget is squeezed, they don't solve the 
problem by pulling the kids out of school. We cannot roll back 
the clock on our economy. Our economic woes weren't caused by 
too much science. At a time like this, we need to make the 
critical investments to bolster our research infrastructure and 
our future workforce, advancing our technological capabilities 
now while sowing the seeds for the industries of the future. 
And let me be clear: I stand with the President and a number of 
respected conservative columnists, numerous policy experts, and 
I believe the American people when I say that these are 
investments and not just spending.
    With research in science education, there is a guaranteed 
return. If the Continuing Resolution passed by the House two 
weeks ago were enacted, the Department of Energy's basic 
science and energy R&D portfolios as well as the extensive 
network of national laboratories and world-class facilities 
would be devastated. At the same time, these cuts would have 
negligible real impact on our national deficit. If this C.R. is 
enacted, it is known that within months STEM education, teacher 
training, workforce development and activities of DOE will 
likely cease. Many thousands of research scientists, graduate 
students, technical and administrative staff, contractors and 
other support staff across the country will be laid off or 
furloughed. The impact on indirect jobs is expected to even be 
greater. Research projects will be delayed or terminated. 
Unique world-class scientific facilities used by industry and 
academia will have operating times decrease, will be 
temporarily shuttered or even completely closed. Ongoing 
construction and upgrades at the labs and national user 
facilities will not move forward, costing more in scheduling 
delays and broken contracts, and restricting or eliminating 
access for academic and industrial researchers.
    This is especially worrisome to me because as we know, the 
last hired are often the first fired. Many of the graduate 
students and early career researchers that our future depends 
on will likely be the first to lose their jobs. This strikes at 
the heart of a generation rife with a passion for innovating--
young people who are willing to work long nights in labs across 
the country to find solutions to our Nation's economic, 
national security, energy, and environmental problems.
    All of this could happen as countries like China, India, 
Germany, Japan and many others seize on our weakness in this 
economic downturn to invest billions of dollars to build up 
their own clean energy technology sectors to compete with or 
attract U.S. companies. For example, in 2009 alone, China's 
government investment attracted $35 billion in private capital 
for clean energy technologies. The United States came in a 
distant second, attracting a little more than half that much.
    In the President's recent State of the Union address, he 
spoke at length about the need to reinvigorate the American 
capacity for innovation, and he highlighted the economic 
opportunities that lie in clean energy technologies. The fiscal 
year 2012 request for DOE proposes increases in a number of 
critical programs while making some tough but prudent decreases 
in others. This is a direct illustration of the President's 
commitment to a clean energy future and takes us into the 
opposite direction from where the C.R. would leave us.
    This committee has heard from a number of organizations, 
industry associations, national labs and academia on the 
negative impact of the proposed C.R. cuts and the important 
roles these programs play in our economy.
    Mr. Secretary, as you testify today, I hope to learn from 
you how the proposed cuts to DOE will impact our country's 
innovation pipeline and the young people preparing for careers 
in these exciting new fields, and how the President's vision 
will leave us better prepared to lead the global economy in 
this century. I look forward to working with you and members on 
both sides of the aisle on these important issues.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you Chairman Hall, and welcome back to the Committee, 
Secretary Chu. We are here today to discuss the President's fiscal year 
2012 budget request for the Department of Energy, even as the fiscal 
year 2011 budget still dominates the attention of Congress. For both 
budget years, and likely for years to come, the issue remains the same: 
while we must be fiscally responsible, we also must keep America 
competitive and create a better future the American people.
    I agree with Chairman Hall--we are in a dangerous position as it 
relates to our national deficit. As any responsible American family 
would do, we have to reconcile how much money the government spends 
with what it brings in. But we are also in danger of jeopardizing our 
standard of living and our future if we allow good programs to fall 
victim to indiscriminate cuts. It is time to set priorities, and make 
hard choices that do not leave our workforce ill-prepared and hamper 
the country's ability to innovate and grow. If a family's budget is 
squeezed, they don't solve the problem by pulling the kids out of 
school.
    We cannot roll back the clock on our economy. Our economic woes 
weren't caused by too much science. At a time like this we need to make 
the critical investments to bolster our research infrastructure and our 
future workforce, advancing our technological capabilities now, while 
sowing the seeds for the industries of the future. And let me clear; I 
stand with the President, a number of respected conservative 
columnists, numerous policy experts, and, I believe, the American 
people when I say that these are ``Investments'', and not just 
``spending''! With research and science education, there is a 
guaranteed return.
    If the Continuing Resolution (CR) passed by the House two weeks ago 
were enacted, the Department of Energy's basic science and energy RD&D 
portfolios, as well as its extensive network of National Laboratories 
and world-class facilities, would be devastated. At the same time these 
cuts would have a negligible real impact on our national deficit.
    If this CR is enacted it is known that within months:

        <bullet>  Many thousands of research scientists, graduate 
        students, technical and administrative staff, contractors, and 
        other support staff across the country will be laid off of 
        furloughed.

        <bullet>  The impact on indirect jobs is expected to be even 
        greater.

        <bullet>  Research projects will be delayed or terminated.

        <bullet>  Unique, world-class scientific facilities used by 
        industry and academia will have operating times decreased, will 
        be temporarily shuttered, or even completely closed.

        <bullet>  STEM education, teacher training, and workforce 
        development activities at DOE will likely cease.

        <bullet>  Ongoing construction and upgrades at the labs and 
        national user facilities will not move forward, costing more in 
        scheduling delays and broken contracts and restricting or 
        eliminating access for academic and industrial researchers.

    This is especially worrisome to me because as we all know, the last 
hired are often the first fired. Many of the graduate students and 
early career researchers that our future depends upon will likely be 
the first to lose their jobs. This strikes at the heart of a generation 
ripe with a passion for innovating, young people who are willing to 
work long nights in labs across the country to find solutions to our 
nation's economic, national security, energy, and environmental 
problems.
    All of this could happen as countries like China, India, Germany, 
Japan and many others seize on our weakness in this economic downturn 
to invest billions of dollars to build up their own clean energy 
technology sectors to compete with, or attract, U.S. companies. For 
example, in 2009 alone, China's government investment attracted almost 
$35 billion in private capital for clean energy technologies. The U.S. 
came in a distant second, attracting a little more than half as much.
    In the President's recent State of the Union address he spoke at 
length about the need to reinvigorate the American capacity for 
innovation, and he highlighted the economic opportunity that lies in 
clean energy technologies. The FY 2012 request for DOE proposes 
increases for a number of critical programs, while making some tough 
but prudent decreases in others. This is a direct illustration of the 
President's commitment to a clean energy future, and takes us in the 
opposite direction from where the CR would leave us.
    This Committee has heard from a number of organizations, industry 
associations, national labs and academia on the negative impact of the 
proposed CR cuts, and the important role these programs play in our 
economy. Mr. Secretary, as you testify today, I hope to learn from you 
how the proposed cuts to DOE will impact our country's innovation 
pipeline and the young people preparing for careers in these exciting 
new fields, and how the President's vision will leave us better 
prepared to lead the global economy in this century.
    I look forward to working with you and Members from both sides of 
the aisle on these important issues.

    Chairman Hall. Thank you, Ms. Johnson, for a good opening 
statement.
    If there are Members who want to submit additional opening 
statements, your statements will be added to the record at this 
point.
    I have the privilege of introducing the witness at this 
time. Dr. Chu serves as the 12th Secretary of Energy. Prior to 
his service as Secretary at DOE, Dr. Chu was the Director of 
DOE's Lawrence Berkeley National Lab and a professor of physics 
in molecular and cellular biology at the University of 
California. He was a co-winner of the 1997 Nobel Prize for 
Physics, and that is quite an honor.
    As I know our witness knows, spoken testimony is limited to 
five minutes after which the members of the Committee will have 
five minutes each to ask questions. The chair is able to 
provide and the Committee is willing to provide some 
flexibility to you since you are our only witness today and for 
the important position that you hold and the gratitude we have 
to you for appearing before us. I recognize you at this time, 
sir.

            STATEMENT OF DR. STEVEN CHU, SECRETARY,

                      DEPARTMENT OF ENERGY

    Secretary Chu. Thank you, Chairman Hall, and thank you, 
Ranking Member Johnson and members of this Committee. Thank you 
for the opportunity to discuss the President's fiscal 2012 
budget request for the Department of Energy.
    Before I begin my statement, I want to acknowledge the 
absence of Congresswoman Gabrielle Giffords, who has been a 
strong voice on energy issues, especially solar energy. It has 
been a privilege to work with her over the last two years and I 
look forward to working with her again as soon as she is ready 
to return to Washington.
    President Obama has a plan for the United States to win the 
future by out-innovating, out-educating and out-building the 
rest of the world while at the same time addressing the 
deficit. This Committee understands the importance of science 
to our Nation's future. We must rev up the great American 
innovation machine to create jobs and secure our future 
prosperity.
    Federal support for scientific research and our applied 
energy portfolio is critical for our competitiveness. The 
Department invests in early-stage research that the private 
sector often considers risky, and we leverage our resources to 
stimulate private sector investments in deployment.
    To spur innovation, President Obama has called for 
increased investments in clean energy research, development and 
deployment. In addition, he has proposed a bold but achievable 
goal of generating 80 percent of America's electricity from 
clean sources by 2035. The clean energy standard would provide 
a clear long-term signal to industry to bring capital off the 
sidelines and into the clean energy sector. The most 
competitive clean energy sources will win in the marketplace. 
The government does not need to pick favorites.
    The Department of Energy's fiscal year 2012 budget request 
of $29.5 billion supports the President's goals and strengthens 
the Nation's economy and security. Through energy efficiency 
programs, we will save money for consumers by saving energy. In 
addition, the budget supports the research, development and 
deployment of renewable energy, the modernization of the 
electric grid and the advancement of carbon capture and 
sequestration technologies, and it helps reduce our dependence 
on oil by developing the next generation of biofuels and 
accelerating electric vehicle research and development.
    We are also requesting new credit subsidy to support loan 
guarantees for renewable and energy efficiency technologies. To 
jump-start the nuclear industry, we request up to $36 billion 
in loan guarantee authority while also investing in advanced 
nuclear technologies.
    The President's budget also invests in basic and applied 
research and keeps us on the path to doubling the funding for 
key scientific agencies including the Office of Science. The 
budget invests $550 million in the Advanced Research Projects 
Agency-Energy, also known as ARPA-E. The Administration also 
seeks an additional $100 million for ARPA-E as part of the 
President's Wireless Innovation and Infrastructure Initiative. 
This investment will allow ARPA-E to continue promising early-
stage research projects that aim to deliver game-changing clean 
energy technologies.
    The Office of Science and ARPA-E play distinct and 
complementary rules in our research portfolio. The Office of 
Science supports basic research that furthers scientific 
understanding while ARPA-E supports high-risk, high-reward 
research projects to explore potentially transformative 
technologies.
    Another piece of our research effort is the energy 
innovation hubs. Through the hubs, we are bringing together our 
Nation's top scientists and engineers to achieve similar game-
changing energy goals but where a concentrated effort over a 
longer time horizon is needed to establish innovation 
leadership. The budget requests $146 million to support the 
three existing hubs and to establish three new hubs. And 
finally, the budget continues to support the Energy Frontier 
Research Centers which are mostly university-led teams working 
to solve scientific problems that are blocking clean energy 
development.
    To reach our energy goals, we must take a portfolio 
approach to R&D pursuing several research strategies that have 
proven to be successful in the past. But I want to be clear: 
This is not a kitchen sink approach. This work is being 
coordinated and prioritized with a 360-degree view of how the 
pieces fit together. Taken together, these initiatives will 
help America lead in innovation.
    In addition to strengthening our economy, the budget 
request also strengths our security by providing $11.8 billion 
for the Department's National Nuclear Security Administration.
    The Department is also mindful of our responsibility to 
taxpayers. We are cutting back in multiple areas including 
eliminating unnecessary fossil fuel subsidies. We are 
streamlining operations. We are making some tough choices like 
freezing salaries and bonuses for hardworking national 
laboratory, site and facility management contractor employees.
    The United States faces a choice today: Will we lead in 
innovation and out-compete the rest of the world or will we 
fall behind? To lead the world in clean energy, we must act 
now. We can't afford not to.
    Thank you, and I will be pleased to answer any questions 
you may have.
    [The prepared statement of Dr. Chu follows:]

 Prepared Statement by Secretary Steven Chu, U.S. Department of Energy

    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the President's Fiscal Year 2012 budget request for the 
Department of Energy.
    In his State of the Union address, President Obama laid out a plan 
for the United States to win the future by out-innovating, out-
educating and out-building the rest of the world, while at the same 
time addressing the deficit. The President's budget request invests in 
much-needed programs while cutting back where we can afford to.
    Many countries are moving aggressively to develop and deploy the 
clean energy technologies that the world will demand in the coming 
years and decades. As the President said, this is our generation's 
``Sputnik moment.''
    We must rev up the great American innovation machine to win the 
clean energy race and secure our future prosperity. To that end, 
President Obama has called for increased investments in clean energy 
research, development and deployment. In addition, he has proposed a 
bold but achievable goal of generating 80 percent of America's 
electricity from clean sources by 2035.
    A Clean Energy Standard will provide a clear, long-term signal to 
industry to bring capital off the sidelines and into the clean energy 
sector. It will grow the domestic market for clean sources of energy - 
creating jobs, driving innovation and enhancing national security. And 
by drawing on a wide range of energy sources including renewables, 
nuclear, clean coal and natural gas, it will give utilities the 
flexibility they need to meet our clean energy goal while protecting 
consumers in every region of the country.
    The Department of Energy's FY 12 budget request of $29.5 billion 
supports these goals and strengthens the nation's economy and security 
by investing in the following priorities:

        <bullet>  Supporting groundbreaking basic science, research and 
        innovation to solve our energy challenges and ensure that the 
        United States remains at the forefront of science and 
        technology;

        <bullet>  Leading in the development and deployment of clean 
        and efficient energy technologies to reduce our dependence on 
        oil, accelerate the transition to a clean energy economy and 
        promote economic competitiveness; and

        <bullet>  Strengthening national security by reducing nuclear 
        dangers, maintaining a safe, secure and effective nuclear 
        deterrent and cleaning up our Cold War nuclear legacy.

    While we are investing in areas that are critical to our future, we 
are also rooting out programs that aren't needed and making hard 
choices to tighten our belt. Additionally, we are improving our 
management and operations so we function more efficiently and 
effectively.

Leading in the Global Clean Energy Economy

    As the President said in his State of the Union address, investing 
in clean energy will strengthen our security, protect our planet, and 
create countless new jobs here at home. The Department's budget request 
invests $3.2 billion in energy efficiency and renewable energy 
programs.
    Through programs to make homes and buildings more energy efficient, 
including a new ``Better Buildings Initiative'' to make commercial 
buildings 20 percent more efficient over the next decade, we will save 
money for families and businesses by saving energy. That is money that 
can be re-invested back into the economy. In addition, the budget 
supports the research, development and deployment of renewable sources 
of energy like wind, solar and geothermal. It supports the 
modernization of the electric grid and the advancement of carbon 
capture and sequestration technologies. And it helps reduce our 
dependence on oil by developing the next generation of biofuels and 
accelerating electric vehicle research and deployment to support the 
President's goal of putting one million electric vehicles on the road 
by 2015. This includes a $200 million competitive program to encourage 
communities to invest in electric vehicle infrastructure.
    We're also focused on moving clean energy technologies from the lab 
to the marketplace. Over the past two years, the Department's loan 
programs have supported more than $26 billion in loans, loan 
guarantees, and conditional commitments to guarantee loans for 23 clean 
energy and enhanced automotive fuel efficiency projects across the 
country, which the companies estimate will create or save more than 
58,000 jobs. Building on this success, we are requesting new credit 
subsidy that will support approximately $1 billion to $2 billion in 
loan guarantees for innovative renewable energy and energy efficiency 
technologies. These deployment efforts build on the substantial 
investment made in the clean energy sector by the Recovery Act, and are 
supplemented by tax incentives that have also played an important role 
in bringing clean energy projects to market, such as the 48C 
manufacturing tax credits and the 1603 cash grants in lieu of 
investment tax credits, which the 2012 budget also expands. We are also 
requesting $100 million in credit subsidy for a new ``Better Buildings 
Pilot Loan Guarantee Initiative for Universities, Schools, and 
Hospitals,'' which will guarantee up to $2 billion in loans to support 
energy efficient retrofits.
    Nuclear energy also has an important role to play in our energy 
portfolio. To jumpstart the domestic nuclear industry, the budget 
requests up to $36 billion in loan guarantee authority. It also invests 
in the research and development of advanced nuclear technologies, 
including small modular reactors.

Supporting Groundbreaking Science

    To spur innovation, the President's budget request invests in basic 
and applied research and keeps us on the path to doubling funding for 
key science agencies, including the Department's Office of Science. As 
Norm Augustine, former Chairman of Lockheed Martin and former Under 
Secretary of the Army, has said, under-funding R&D in a time of 
austerity is like removing the engine of an aircraft to reduce its 
weight.
    That is why the budget request increases support for the 
Department's comprehensive research strategy to accelerate energy 
breakthroughs.
    Through $5.4 billion for the Office of Science, we're expanding our 
investment in basic energy sciences, advanced scientific computing and 
biological and environmental sciences - all key areas for our future 
economic competitiveness.
    The budget invests $550 million in the Advanced Research Projects 
Agency-Energy, also known as ARPA-E. The Administration also seeks an 
additional $100 million for ARPA-E from the Wireless Innovation Fund to 
support wireless clean energy technologies. This investment will allow 
ARPA-E to continue the promising early-stage research projects that aim 
to deliver game-changing clean energy technologies. ARPA-E's projects 
are generating excitement both in the Department and in the private 
sector. For example, through a combined total of $24 million from ARPA-
E, six companies have been able to advance their research efforts and 
show the potential viability of their cutting-edge technologies. This 
extremely valuable early support enabled those companies to achieve R&D 
milestones that, in turn, have attracted more than $100 million in 
private sector funds to the projects. This is precisely the innovation 
leverage that is needed to win the future.
    Another key piece of our research effort is the Energy Innovation 
Hubs. Through the Hubs, we are bringing together our nation's top 
scientists and engineers to achieve similar game-changing energy goals, 
but where a concentrated effort over a longer time horizon is needed to 
establish innovation leadership. The Department has established three 
Energy Innovation Hubs in the areas of energy efficient buildings, 
modeling and simulation for nuclear reactors and fuels from sunlight. 
The budget requests $146 million to support the three existing Hubs and 
to establish three new Hubs in the areas of batteries and energy 
storage, smart grid technologies and systems, and critical materials. 
The Energy Innovation Hubs were modeled after the Department of 
Energy's BioEnergy Institutes, which have established an outstanding 
three-year track record.
    Finally, the budget continues to support the Energy Frontier 
Research Centers, which are mostly university-led teams working to 
solve specific scientific problems that are blocking clean energy 
development.
    The Energy Innovation Hubs, ARPA-E, and EFRCs represent three 
complementary approaches to advance groundbreaking discovery. When you 
think of the EFRCs, think about a collaborative team of scientists such 
as Watson and Crick unlocking the secrets of DNA. When you think of 
ARPA-E, think about visionary risk-takers launching new technologies 
and start-up companies out of their garages. When you think of the 
Hubs, think of large, mission-oriented research efforts such as the 
Manhattan Project, the development of radar at MIT's Radiation 
Laboratory during World War II and the research in America's great 
industrial laboratories in their heyday. We don't know where the big 
energy breakthroughs are going to come from. To reach our energy goals, 
we must take a portfolio approach to R&D: pursuing several research 
strategies that have proven to be successful in the past. But I want to 
be clear - this is not a ``kitchen sink'' approach. This work is being 
coordinated and prioritized, with a 360-degree view of how these pieces 
fit together. Taken together, these initiatives will help America lead 
in science and technology innovation.

Nuclear Safety and Security

    In addition to strengthening our economy, the budget request also 
strengthens our security by providing $11.8 billion for the 
Department's National Nuclear Security Administration. The five-year FY 
12 to FY 16 request of nearly $65 billion for NNSA reflects the 
President's nuclear security priorities, as well as his commitment to 
modernize the U.S. nuclear weapons enterprise and sustain a strong 
nuclear deterrent for the duration of the New START Treaty and beyond.
    The request of $7.6 billion for Weapons Activities provides a 
strong basis for transitioning to a smaller yet still safe, secure and 
effective nuclear stockpile without additional nuclear testing. It also 
provides much-needed resources to strengthen science, technology and 
engineering capabilities and to modernize the physical infrastructure 
of our nuclear security enterprise. The President has identified the 
danger of terrorists getting their hands on nuclear weapons or the 
material to build them as the greatest threat to global security. To 
support the President's goal of securing all vulnerable nuclear 
material around the world in four years, the budget invests $2.5 
billion in the NNSA Defense Nuclear Nonproliferation program. This is 
part of a five-year, $14.2 billion commitment for the program.
    The budget also requests $1.2 billion to support the Navy's nuclear 
powered submarines and aircraft carriers. And it provides $6.1 billion 
to protect public health and safety by cleaning up the nation's Cold 
War nuclear legacy.

Fiscal Responsibility

    Through our investments, we are laying the groundwork for the 
nation's future prosperity and security. At the same time, we are 
mindful of our responsibility to the taxpayer. We are cutting back in 
multiple areas, including eliminating unnecessary fossil fuel 
subsidies, reducing funding for the Fossil Energy program and reducing 
funding for the hydrogen technology program. We're streamlining 
operations to reduce administrative costs. And we're making some 
painful cuts, including ending operation of the Tevatron accelerator 
and freezing salary and bonuses for hard-working National Laboratory, 
site and facility management contractor employees.
    Finally, we continue to make progress on a management excellence 
agenda to improve our operations.
    The United States faces a choice today will we lead in innovation 
and out-compete the rest of the world or will we fall behind? To lead 
the world in clean energy, we must act now. We can't afford not to.
    Thank you, and now I am pleased to answer any questions you may 
have.

                HIGHLIGHTS OF THE FY 2012 BUDGET REQUEST

    In his State of the Union address, President Obama said that 
America faces ``our generation's Sputnik moment'' and that we need to 
out-innovate, out-educate and out-build the rest of the world to 
capture the jobs of the 21st century. ``In America, innovation doesn't 
just change our lives. It's how we make our living.'' Through 
innovation in promising areas like clean energy, the United States will 
win the future and create new industries and new jobs. To lead in the 
global clean energy economy, we must mobilize America's innovation 
machine in order to bring technologies from the laboratory to the 
marketplace. The Department of Energy (DOE) is on the front lines of 
this effort. To succeed, the Department will pursue game-changing 
breakthroughs, invest in innovative technologies, and demonstrate 
commercially viable solutions.
    In addition to energy advances that spark economic growth, national 
security remains fundamental to the Department's mission. Through 
bipartisan ratification of the New START treaty with Russia, America 
and its global partners are leading by example in implementing the 
focused expansion of domestic and international activities to reduce 
the threat of nuclear weapons, nuclear proliferation, and unsecured or 
excess weapons-usable materials. The National Nuclear Security 
Administration (NNSA) supports the international effort to secure all 
vulnerable nuclear materials around the world within four years. The 
NNSA also fulfills the President's commitment to modernize the nation's 
nuclear stockpile until a world without nuclear weapons can be 
realized.
    The Department's Fiscal Year (FY) 2012 budget request is $29.5 
billion, an 11.8 percent or $3.1 billion increase from FY 2010 current 
appropriation levels. The FY 2012 request supports the President's 
goals to increase America's competitiveness by making strategic 
investments in our nation's clean energy infrastructure and to 
strengthen our national security by reducing the global threat of 
nuclear materials. The President has called for advancing research on 
clean energy technologies and manufacturing, doubling the share of 
electricity generated from clean energy supplies by 2035, and putting 
one million electric vehicles on the road by 2015. The Department's 
request prepares for a multi-year effort to address these 
interconnected objectives and prioritizes research and development of 
renewable energy technologies to expand sustainable energy options for 
the United States.
    The FY 2012 budget builds on the intense planning, execution, and 
oversight of the $35.2 billion from the American Recovery and 
Reinvestment Act of 2009. By the end of FY 2010, the Department 
successfully obligated $32.7 billion of Recovery Act funds, including 
all funding that was set to expire. In developing the FY 2012 budget 
request, the Department has taken these investments into account and 
will oversee execution of these funds with value to the taxpayer in 
mind. Recovery Act investments are focused on energy conservation and 
renewable energy sources ($16.8 billion), environmental cleanup ($6 
billion), loan guarantees for renewable energy and electric power 
transmission projects ($2.4 billion), grid modernization ($4.5 
billion), carbon capture and sequestration ($3.4 billion), basic 
science research ($1.6 billion), and the Advanced Research Projects 
Agency - Energy ($0.4 billion). The Department's Recovery Act 
activities are strengthening the economy by providing much-needed 
investment, saving or creating tens of thousands of jobs, cutting 
carbon pollution, and reducing U.S. dependence on oil.
    The President's FY 2012 Budget supports three strategic priorities:

        <bullet>  Transformational Energy: Accelerate the 
        transformation to a clean energy economy and secure U.S. 
        leadership in clean energy technologies.

        <bullet>  Economic Prosperity: Strengthen U.S. science and 
        engineering efforts to serve as a cornerstone of our economic 
        prosperity and lead through energy efficiency and secure forms 
        of energy.

        <bullet>  Nuclear Security: Enhance nuclear security through 
        defense, nonproliferation, naval reactors, and environmental 
        cleanup efforts.

    As the President has articulated, innovation is essential to 
America's economic competitiveness. To meet the challenge of `our 
generation's Sputnik moment,' the Department supports a coordinated 
strategy for research and development across all of its programs. With 
every initiative the Department undertakes, sound science is at the 
core. In FY 2012, we will increasingly emphasize cross-cutting 
initiatives to link science throughout the Department, specifically 
with energy and national security programs in order to deliver results 
to the American taxpayer. In the Office of Science, the Department 
requests $5.4 billion, a 9.1 percent or $452 million increase over the 
FY 2010 current appropriation levels, to support an elevated focus on 
the advancement of the United States' leadership in fundamental 
research. Advanced Research Projects Agency - Energy (ARPA-E) is 
building on established gains since its initial funding in FY 2009 
through the Recovery Act to perform transformational research and 
create game-changing breakthroughs for eventual market adoption. The FY 
2012 budget request includes $550 million for ARPA-E to sustain 
investment in new energy technologies.
    Energy Innovation Hubs play a key role in solving specific energy 
challenges by convening and focusing top scientific and engineering 
talent to focus on those problems. The Hubs bring together 
multidisciplinary team of researchers in an effort to speed research 
and shorten the path from scientific discovery to technological 
development and commercial deployment of highly promising energy-
related technologies. The Department is proposing to double its 
commitment to this research approach by requesting three new Hubs to 
focus on batteries and energy storage, critical materials, and Smart 
Grid technologies and systems. The Department will continue funding the 
three Energy Innovation Hubs introduced in FY 2010 to focus on 
developing fuels that can be produced directly from sunlight, improving 
energy efficient building systems design, and using modeling and 
simulation tools to create a virtual model of an operating advanced 
nuclear reactor. Complementing the Hubs, the Department plans in FY 
2012 to continue coordination with the Office of Science's Energy 
Frontier Research Centers, which exemplify the pursuits of broad-based 
science challenges for energy applications.

Energy Security: Promoting America's Energy Security through Reliable,

Clean and Affordable Energy

    In his State of the Union address, the President outlined clearly 
to the American people his roadmap for transforming our nation's energy 
economy to meet the demands of future generations. ``Instead of 
subsidizing yesterday's energy, let's invest in tomorrow's,'' he said. 
To meet the President's challenge, the Department must recruit the 
sharpest research minds and build on its aggressive discovery agenda 
across all programs to achieve breakthroughs on the most pressing 
energy challenges facing the United States.
    In his address, President Obama laid out a goal for clean energy 
sources to account for 80 percent of America's electricity by 2035. In 
FY 2012, the Department requests funds to help achieve this 
Presidential objective and address many of the energy delivery 
challenges facing American families and energy providers.

        <bullet>  Applied Research, Development and Deployment: Meeting 
        the President's goal of making America the first country to 
        have one million electric vehicles on the road by 2015, the 
        Department will research cost competitive methods to develop 
        electric vehicles, increase the adaptability and capacity of 
        the grid to enable vehicle charging, incentivize communities to 
        invest in electric vehicles and infrastructure and send these 
        vehicles to the nation's roadways. The Department will also 
        launch competitive manufacturing research for breakthrough 
        technologies in energy efficiency diagnostics and retrofits to 
        help business owners around the country save money on energy 
        costs.

        <bullet>  Loan Guarantees: The Loan Programs Office (LPO) is a 
        vital tool for promoting innovation in the energy sector across 
        a broad portfolio of clean and efficient energy technologies. 
        In FY 2012, the Department is requesting credit subsidies to 
        support approximately $1 to $2 billion in loan guarantees for 
        renewable energy deployment and up to $36 billion in additional 
        authority to loan guarantees for nuclear power projects. The 
        Department will also continue to streamline and prioritize the 
        issuance of loan guarantees to leverage private sector 
        investment in clean energy and energy efficiency projects that 
        will save and create jobs.

        <bullet>  Better Buildings Initiative: Last year, commercial 
        buildings consumed roughly 20 percent of all energy in the U.S. 
        economy. Improving energy efficiency in our buildings can 
        create jobs, save money, reduce our dependence on oil, and make 
        our air cleaner. The President's Better Buildings Initiative 
        will make commercial buildings 20 percent more energy efficient 
        over the next decade through initiatives that include: re-
        designing the current tax deduction for commercial buildings 
        and upgrades to a credit that is more generous and that will 
        encourage building owners and real estate investment trusts 
        (REITs) to retrofit their properties; improving financing 
        opportunities for retrofits through programs including a new 
        Better Buildings Pilot Loan Guarantee Initiative for 
        Universities, Schools and Hospitals, for which the Department 
        of Energy requests $100 million in credit subsidy to guarantee 
        up to $2 billion in loans for energy efficiency retrofits for 
        these facilities; creating a $100 million Race to Green 
        competitive grant program for state and municipal governments 
        to implement innovative approaches to building codes, 
        performance standards, and regulations so that commercial 
        building efficiency will become the norm in communities across 
        the country; and calling on CEOs and university presidents to 
        join the Department of Energy and other Federal partners in a 
        Better Buildings Challenge to make their organizations leaders 
        in saving energy. The Better Buildings Initiative builds on our 
        investments through the Recovery Act and our continued 
        commitment to passing ``HOMESTAR'' legislation to encourage 
        American families to make energy saving upgrades in their 
        homes.

        <bullet>  Electricity Reliability and Energy Management: 
        Reliable, affordable, efficient, and secure electric power is 
        vital to expanding economic recovery, protecting critical 
        infrastructures, and enabling the transition to renewable 
        energy sources. The FY 2012 request invests $238 million to 
        bring the next generation of grid modernization technologies 
        closer to deployment and commercialization, to assist states 
        and regional partners in grid modernization efforts, and to 
        facilitate recovery from energy supply disruptions when they 
        occur. The request includes a new Smart Grid Technology and 
        Systems Hub that will address the total electricity system, 
        covering applied science, technology, economic, and policy 
        issues that affect our ability to modernize the grid. The FY 
        2012 request also plans an expansion of the Home Energy Score 
        program that provides homeowners with information on how their 
        homes can be more energy efficient and guidance for saving on 
        home energy costs. This is in addition to the President's 
        support for passage of the Home Star rebate program in 2011.

    Investing in energy efficiency, renewable energy generation, and 
grid modernization are fundamental steps necessary for creating a clean 
energy economy. We must also invest in the improvement of existing 
sources of energy that will provide a bridge between current and future 
technologies. These technologies are already a major segment of the 
energy mix and will play a critical role in providing a solid 
foundation that will make possible the creation of a new energy 
economy.

        <bullet>  Leadership in Nuclear Energy: Nuclear energy 
        currently supplies approximately 20 percent of the Nation's 
        electricity and 70 percent of the Nation's clean, non-carbon 
        electricity. The request for the Office of Nuclear Energy 
        includes $380 million for research and development, in addition 
        to key investments in supportive infrastructure. In addition, 
        the Department is engaging in cost-shared activities with 
        industry that may help accelerate commercial deployment of 
        small modular reactors. The request includes funding for cost-
        shared design certification and licensing activities for small 
        modular reactors, the deployment of which holds promise for 
        vastly increasing the generation of clean energy on a cost 
        competitive basis. The Department will also promote nuclear 
        power through the Loan Guarantee Program, which is requesting 
        up to $36 billion in additional loan guarantee authority in FY 
        2012.

        <bullet>  Advanced Fossil Energy: Experience in Carbon Capture 
        and Storage: The world will continue to rely on coal-fired 
        electrical generation to meet energy demand. It is imperative 
        that the United States develop the technology to ensure that 
        base-load electricity generation is as clean and reliable as 
        possible. The Office of Fossil Energy requests $452.9 million 
        for research and development of advanced coal-fueled power 
        systems and carbon capture and storage technologies. The Budget 
        focuses resources within the fossil energy program on 
        activities that can reduce carbon pollution and have potential 
        benefits for both the existing fleet and new power plants 
        specifically, post-combustion capture R&D and geologic carbon 
        storage R&D.

        <bullet>  Ending Tax Subsidies to Fossil Fuel Producers: In 
        accordance with the President's agreement at the G-20 Summit in 
        Pittsburgh to phase out subsidies for fossil fuels so that we 
        can transition to a 21st century energy economy, the 
        Administration proposes to repeal a number of tax preferences 
        available for fossil fuels. Tax subsidies proposed for repeal 
        include, but are not limited to: the credit for oil and gas 
        produced from marginal wells; the deduction for costs paid or 
        incurred for any tertiary injectant used as part of a tertiary 
        oil recovery method; the ability to claim the domestic 
        manufacturing deduction against income derived from the 
        production of oil and gas and coal; and expensing the 
        exploration and development costs for coal.

Economic Security: Sharpening America's Competitive Edge through a

Clean Energy Economy

    To meet ``our generation's Sputnik moment'' and promote economic 
competitiveness, the U.S. must demonstrate leadership in clean energy 
technologies. ``We'll invest in biomedical research, information 
technology and especially clean energy technology - an investment that 
will strengthen our security, protect our planet, and create countless 
new jobs for our people,'' said President Obama before Congress in the 
State of the Union address. President Obama outlined his comprehensive 
vision to lead our nation's clean energy economy and provide economic 
security to Americans. As the Administration seeks to reduce federal 
government spending, the Department recognizes its role and has 
tightened its expenditures in several areas such as oil and natural 
gas. The FY 2012 budget request acknowledges the Department's missions 
to achieve these imperative goals while setting forth a clean energy 
economy for entrepreneurs and manufacturers to reclaim their 
competitive edge in clean energy innovation.
    The Department plans to promote economic security by building on 
the progress made through the over $32 billion in grants and contracts 
under the American Recovery and Reinvestment Act of 2009, which made 
historic investments in the nation's economy and has put the country on 
target to double renewable energy generation by 2012. The Recovery Act 
helped create tens of thousands of jobs and, combined with the FY 2012 
request, will help the Department accelerate the transition of our 
nation to a clean energy economy.
    The President's FY 2012 Budget supports the plan to rebuild our 
economy through clean energy research and development by:

        <bullet>  Expanding ARPA-E to spur innovation-The President's 
        request proposes $550 million for the Advanced Research 
        Projects Agency - Energy (ARPA-E) program, plus an additional 
        $100 million for the program from the Wireless Innovation and 
        Infrastructure Initiative for a total of $650 million. ARPA-E 
        performs transformational and cutting edge energy research with 
        real-world applications in areas ranging from grid technology 
        and power electronics to batteries and energy storage. The 
        budget also supports programs with significant promise to 
        provide reliable, sustainable energy across the country, such 
        as the SunShot initiative aimed at making solar energy cost 
        competitive. With focused investment in manufacturing 
        innovation and industrial technical efficiencies, the 
        President's proposal will move private sector capital off the 
        shelves and into the marketplace.

        <bullet>  Targeting investments for future economic growth-To 
        secure a competitive advantage in high-tech industries and 
        maintain international leadership in scientific computing, we 
        will invest in core research activities for energy 
        technologies, the development of general biological design 
        principles and new synthetic molecular toolkits to improve 
        understanding of natural systems, and core research activities 
        to advance the frontiers of high performance computing. 
        Underlying these investments in research is the education and 
        training of thousands of scientists and engineers who 
        contribute to the skilled scientific workforce needed for a 
        21st century innovation economy.

        <bullet>  Doubling the number of Energy Innovation Hubs to 
        solve key challenges-Innovation breakthroughs occur when 
        scientists collaborate on focused problems. The FY 2012 budget 
        request proposes three new Energy Innovation Hubs that will 
        bring top American scientists to work in teams on critical 
        energy challenges in areas such as critical materials, 
        batteries and energy storage, and Smart Grid technologies. 
        These will join three existing Hubs that focus on fuel 
        generation from sunlight, building efficiency, and nuclear 
        reactor modeling and simulation.

        <bullet>  Integrating Research & Development-The Department has 
        identified areas where coordinated work by discovery-oriented 
        science and applied energy technology programs hold the 
        greatest promise for progress in achieving our energy goals. 
        The Energy Systems Simulation to increase the efficiency of the 
        Internal Combustion Engine (ICE) will produce a set of modern, 
        validated computer codes that could be used by design engineers 
        to optimize the next generation of cleaner, more efficient 
        combustion engines. An initiative on extreme environments will 
        close the gap between actual and ideal performance of materials 
        in nuclear environments. And the Department's Exascale 
        Computing initiative will allow the Department to take the lead 
        in developing the next generation of scientific tools and to 
        advance scientific discoveries in solving practical problems.

        <bullet>  Pursuing the passage of HOMESTAR-Enactment of this 
        program will create jobs by providing strong short-term 
        incentives for energy efficiency improvements in residential 
        buildings. The HOMESTAR program has the potential to accelerate 
        our economic recovery by boosting demand for energy efficiency 
        products and installation services. The program will provide 
        rebates of $1000 to $3000 per household to encourage immediate 
        investment in energy-efficient appliances, building mechanical 
        systems and insulation, and whole-home energy efficiency 
        retrofits. This program will help middle-class families save 
        hundreds of dollars a year in energy costs while improving the 
        comfort and value of their most important investment - their 
        homes. In addition, the program would help reduce our economy's 
        dependence on fossil fuels and support the development of an 
        energy efficiency services sector in our economy.

        <bullet>  Extending access to tax credit and tax grant 
        programs-Two provisions of the American Recovery and 
        Reinvestment Act have been extraordinarily successful in 
        spurring the deployment of renewable energy projects and 
        building advanced manufacturing capabilities: Section 48C 
        Advanced Energy Manufacturing Tax Credit program and the 
        Section 1603 Energy Cash Assistance program. The Administration 
        is pursuing an additional $5 billion in support for the Section 
        48C program, which, by providing a 30% tax credit for energy 
        manufacturing facilities, will continue to help build a robust 
        high-technology, U.S. manufacturing capacity to supply clean 
        energy projects with U.S. made parts and equipment. The Section 
        1603 tax grant program has created tens of thousands of jobs in 
        industries such as wind and solar by providing up-front 
        incentives to thousands of projects. The Administration is 
        seeking a one-year extension of this program.

        <bullet>  Promoting efficient energy use in our everyday lives-
        Currently, weatherization of more than 300,000 homes of low 
        income families has been achieved, providing energy cost 
        savings and financial relief to households. The FY 2012 request 
        of $320 million continues residential weatherization, while 
        increasing the focus on new innovative approaches to 
        residential home weatherization.

National Security: Securing Nuclear and Radiological Materials,

Maintaining Nuclear Deterrence, and Advancing Responsible

Legacy Cleanup

    A pillar of President Obama's national security agenda for the 
United States is to eliminate the global threat posed by nuclear 
weapons and prevent weapons-usable nuclear material from falling into 
the hands of terrorists. As part of this agenda, the Administration and 
Congress worked tirelessly toward the December 2010 bipartisan 
ratification of the New Strategic Arms Reduction Treaty (New START) 
with Russia, which cuts the number of strategic nuclear weapons each 
country can deploy to 1,550. After signing this agreement in April 
2010, President Obama said, ``In many ways, nuclear weapons represent 
both the darkest days of the Cold War, and the most troubling threats 
of our time. Today, we've taken another step forward in leaving behind 
the legacy of the 20th century while building a more secure future for 
our children. We've turned words into action. We've made progress that 
is clear and concrete. And we've demonstrated the importance of 
American leadership--and American partnership--on behalf of our own 
security, and the world's''.
    The Department's National Nuclear Security Administration (NNSA), 
through work with global partners and efforts to secure vulnerable 
nuclear materials, achieved significant milestones during FY 2010 and 
FY 2011 to reduce the risk of proliferation and leverage science to 
maintain our nation's nuclear deterrence. Additionally, the 
Environmental Management program made progress advancing responsible 
nuclear cleanup from the Cold War. The Department's FY 2012 request 
seeks to build upon these successes and advance the President's nuclear 
security agenda.

Reduce the Risk of Proliferation
    In 2009, President Obama committed the United States to an 
international effort to secure vulnerable nuclear material worldwide in 
four years. To solidify international support for this effort, and to 
address the threat of nuclear terrorism, the President convened leaders 
from 47 countries at the Washington Nuclear Security Summit in April 
2010. The Summit resulted in a Communique which stated, ``Nuclear 
terrorism is one of the most challenging threats to international 
security, and strong nuclear security measures are the most effective 
means to prevent terrorists, criminals, or other unauthorized actors 
from acquiring nuclear materials.''
    The FY 2012 budget for the NNSA Defense Nuclear Nonproliferation 
program will help advance further work that is needed to meet the goals 
of President Obama and the Nuclear Security Summit, recognizing the 
urgency of the threat and making the full commitment to global 
cooperation on nonproliferation. The budget provides $2.5 billion in FY 
2012, and $14.2 billion through FY 2016 to detect, secure, and dispose 
of dangerous nuclear and radiological material worldwide. This request 
is a decrease of five percent, or $138 million, from the FY 2011 
request, which reflects completion of accelerated efforts to secure 
vulnerable nuclear materials within the President's stated timeframe. 
The decrease also reflects our decision to await agreement between the 
United States and Russia on detailed implementation milestones prior to 
requesting additional U.S. pledged funding to support Russian plutonium 
disposition. The FY 2012 budget request follows through on securing 
vulnerable materials and supports efforts to design new technologies in 
support of treaty monitoring and verification, which will contribute to 
implementation of New START. The budget also broadens cooperative 
nonproliferation initiatives with foreign governments and international 
organizations in support of the President's objective of a world 
without nuclear weapons. The budget continues the provision of security 
upgrades at selected sites, both within the United States and in 
foreign countries, to address outsider and insider threats, and 
accelerates the pace of research reactor conversions from use of 
highly-enriched uranium fuel to low-enriched uranium fuel.

Leverage Science to Maintain Nuclear Deterrence
    The FY 2012 budget request advances the Department's commitment to 
the national security interests of the United States through 
stewardship of a safe, secure and effective nuclear weapons stockpile 
without the use of underground nuclear testing. The 2010 Nuclear 
Posture Review Report calls for the United States to reduce nuclear 
force levels. As the United States begins the reduction required by New 
START, the science, technology and engineering capabilities and 
intellectual capacity within the nuclear security enterprise become 
more critical to sustaining the U.S. nuclear deterrent. NNSA continues 
to emphasize these capabilities, including functioning as a national 
science, technology, and engineering resource to other agencies with 
national security responsibilities. Through the NNSA, the Department 
requests $7.6 billion for the Weapons Activities appropriation, an 8.9 
percent, or $621 million, increase from the President's FY 2011 
request. It also is an 18.9 percent, or $1.205 million increase from 
the FY 2010 enacted appropriation. This increase reflects an investment 
strategy that provides a strong basis for transitioning to a smaller 
yet still safe, secure and effective nuclear stockpile without 
additional nuclear testing, strengthening the science, technology and 
engineering base, modernizing the physical infrastructure, and 
streamlining the enterprise's physical and operational footprint. These 
investments will further enable the Nuclear Posture Review's 
comprehensive nuclear defense strategy, based on current and projected 
global threats that rely less on nuclear weapons, while strengthening 
the nation's nuclear deterrent through completing major stockpile 
system life extensions, stabilizing the science, technology and 
engineering base, and modernizing the infrastructure.
    The Naval Reactors program ensures the safe and reliable operation 
of reactor plants in nuclear-powered submarines and aircraft carriers, 
constituting 45 percent of the U.S. Navy's combatants. The FY 2012 
request for Naval Reactors of $1.2 billion, is an increase of $83.2 
million or 7.8 percent over the FY 2011 request and $209 million or 
18.1 percent above the FY 2010 enacted appropriation. Funding for this 
program is ramping up for reactor design and development efforts for 
the Ohio Class Replacement Submarine ($121 million), refueling of the 
Land-Based Prototype ($99.5 million), and recapitalization of the naval 
spent nuclear fuel infrastructure for the Spent Fuel Handling 
Recapitalization program ($53.8 million) at the Naval Reactors Facility 
located at the Idaho National Laboratory.

Advance Responsible Environmental Cleanup
    The FY 2012 budget includes $6.13 billion for the Office of 
Environmental Management (EM), to protect public health and safety by 
cleaning up hazardous, radioactive legacy waste from the Manhattan 
Project and the Cold War. This funding will allow the program to 
continue to accelerate cleaning up and closing sites, focusing on 
activities with the greatest risk reduction. Acceleration of cleaning 
up sites where funding would have immediate impact was established as 
the overarching objective of the $6 billion in Recovery Act funding. EM 
will use the remaining $309 million of Recovery Act funding during FY 
2012 as it completes footprint reduction and near-term completion 
cleanup activities.
    As the Department continues to make progress in completing 
environmental cleanup, the FY 2012 budget request of $170 million for 
the Office of Legacy Management supports the Department's long-term 
stewardship responsibilities and payment of pensions and benefits for 
former contractor workers after site closure.

         DEPARTMENT OF ENERGY FY 2012 PROGRAM OFFICE HIGHLIGHTS

Office of Science: Invest in the Building Blocks of American Innovation

    The Department of Energy's Office of Science (SC) delivers 
scientific discoveries and major scientific tools to transform our 
understanding of energy and matter and advance the energy, economic, 
and national security of the United States. SC is the largest Federal 
sponsor of basic research in the physical sciences, supporting programs 
in areas such as physics, chemistry, biology, environmental sciences, 
applied mathematics, and computational sciences. In FY 2012, the 
Department requests $5.4 billion, an increase of 9.1 percent over the 
FY 2010 current appropriation, to invest in basic research. The FY 2012 
request supports the President's Strategy for American Innovation, and 
is consistent with the goal of doubling funding at key basic research 
agencies, including the Office of Science. The FY 2012 Office of 
Science budget request supports the following objectives from the 
Strategy, including:

        <bullet>  Unleash a clean energy revolution

        <bullet>  Strengthen and broaden American leadership in 
        fundamental research

        <bullet>  Develop an advanced information technology ecosystem

        <bullet>  Educate the next generation with 21st century skills 
        and create a world-class workforce

    In FY 2012, SC continues to support fundamental research for 
scientific discovery, but today our country needs to move strongly to 
solve our energy problems. Therefore, the central theme of this year's 
budget in SC is research in new technologies for a clean energy future 
that address competing demands on our environment. These efforts, 
coordinated with the DOE applied technology programs and with input 
from the scientific community and industry, will emphasize research 
underpinning advances in non-carbon emitting energy sources, carbon 
capture and sequestration, transportation and fuel switching, 
transmission and energy storage, efficiency, and critical materials for 
energy applications.
    In the area of advancing non-carbon energy sources, the FY 2012 
budget request will provide for new investments in the science of 
interfaces and degradation relevant to solar photovoltaics, basic 
actinide chemistry research related to advanced nuclear fuel cycles, 
and research in materials under extreme environments relevant to 
extreme nuclear technology environments, and genomics-based research on 
biological design principles and synthetic biology tools to underpin 
bio-based energy solutions. Carbon capture and sequestration research 
will focus on novel molecular design for materials and multiscale 
dynamics of flow and plume migration, respectively. SC will initiate an 
energy systems simulation research effort focused on predictive 
modeling of combustion in an evolving fuel environment in support of 
the Department's efforts in transportation and alternative fuels. Also 
underpinning transportation and fuel switching, as well as energy 
storage, the FY 2012 request will support an Energy Innovation Hub for 
Batteries and Energy Storage. The Fuels from Sunlight Hub, established 
in FY 2010, as well as the Energy Frontier Research Centers and DOE 
Bioenergy Research Centers also continue. Research in enabling 
materials sciences will support needs of future electricity 
transmission systems and novel building materials to improve building 
efficiencies.
    The FY 2012 budget request also provides for foundational science 
in condensed matter and materials physics, chemistry, biology, climate 
and environmental sciences, applied mathematics, computational and 
computer science, high energy physics, nuclear physics, plasma physics, 
and fusion energy sciences; and provides for research facilities and 
capabilities that keep U.S. researchers at the forefront of science. 
The FY 2012 request supports targeted increases in areas such as 
computational materials and chemistry by design, nanoelectronics, and 
advanced scientific applications and integrated application-hardware-
software co-design for exascale, which position the U.S. to secure a 
competitive advantage in high-tech industries and maintain 
international leadership in scientific computing. Underlying these 
investments is the education and training of thousands of scientists 
and engineers who contribute to the skilled scientific workforce needed 
for the 21st century innovation economy.
    The Office of Science supports investigators at about 300 academic 
institutions and from all of the DOE laboratories. Over 26,000 
researchers from universities, national laboratories, industry, and 
international partners are expected to use the Office of Science 
scientific user facilities in FY 2012.

Advanced Research Projects Agency - Energy: Transformational Research 
        and Development
    The FY 2012 budget request includes $550 million for the Advanced 
Research Projects Agency - Energy (ARPA-E), plus an additional $100 
million for the program from the Wireless Innovation and Infrastructure 
Initiative for a total of $650 million. ARPA-E was launched in FY 2009 
to sponsor specific high-risk and high-payoff transformational research 
and development projects that overcome the long-term technological 
barriers in the development of energy technologies to meet the Nation's 
energy challenges, but that industry will not support at such an early 
stage. An essential component of ARPA-E's culture is an overarching 
focus on accelerating science to market. Beyond simply funding 
transformational research creating revolutionary technologies, ARPA-E 
is dedicated to the market adoption of those new technologies that will 
fuel the economy, create new jobs, reduce energy imports, improve 
energy efficiency, reduce energy-related emissions, and ensure that the 
U.S. maintains a technological lead in developing and deploying 
advanced energy technologies.

Office of Energy Efficiency and Renewable Energy: Investing in 
        Breakthrough
Technology and a Clean Energy Future
    The Office of Energy Efficiency and Renewable Energy (EERE) 
supports research, development, demonstration, and deployment 
activities on technologies and practices essential for meeting national 
security goals by reducing dependence on oil, meeting environmental 
goals by minimizing the emissions associated with energy production and 
use, and stimulating economic growth and job creation by minimizing the 
cost of energy services. The EERE portfolio emphasizes work areas where 
the potential impact is largest, where Federal funds are most critical. 
It balances investments in high-risk research with partnerships with 
private firms that speed the translation of innovations into practical 
business opportunities. The diverse set of technologies supported helps 
ensure that the U.S. has many options for meeting its energy goals. 
Program management is designed to identify the best groups in the 
country to address these challenges and supports work in universities, 
companies, national laboratories, and consortia.
    The FY 2012 budget request of $3.2 billion, the increase of 44.4% 
over the FY 2010 current appropriation, is aimed at accelerating 
innovation and change in the Nation's energy economy. The request 
includes programs associated with meeting the President's goals of 
investing in the next generation of clean energy technologies, vehicles 
and fuels, and energy efficiency measures that reduce energy use in 
Federal agencies and the industrial and building sectors.

Clean, Renewable Energy Generation
    The FY 2012 budget request continues to work to transform the 
Nation's energy infrastructure by investing over $1,164.9 million in a 
variety of renewable programs including solar ($457.0 million), wind 
($126.9 million), water ($38.5 million), hydrogen ($100.5 million), 
biomass ($340.5 million), and geothermal ($101.5 million). Research, 
development, and deployment of these technologies will reduce the 
production of greenhouse gas emissions and revitalize an economy built 
on the next generation of domestic production. The request includes the 
solar SunShot program which will invest in transformative research 
focusing on achieving radical cost reductions in photovoltaic modules, 
balance of systems, and power electronics.

Energy Efficiency
    The Department implements a number of efforts to increase energy 
efficiency in homes, transportation, and industry. The FY 2012 budget 
requests $1,805.3 million to accelerate deployment of clean, cost-
effective, and rapidly deployable energy efficiency measures in order 
to reduce energy consumption in residential and commercial buildings, 
and the industrial and Federal sectors. The Department will invest 
$470.7 million in the Building Technologies program and $33.0 million 
for the Federal Energy Management Program. Federal assistance for 
state-level programs such as State Energy Program ($63.8 million), 
Tribal ($10.0 million) and Weatherization Assistance Program ($320.0 
million) will continue to help citizens implement energy efficiency 
measures, lower energy costs and greenhouse gas emissions, and build a 
technical workforce. ($319.8 million) for Industry will provide a 
balanced portfolio of advanced R&D and pursuit of near-term low cost 
opportunities with the objectives of increasing U.S. competitiveness, 
enhancing clean energy manufacturing, and improving energy 
productivity. There will be a focus on next generation manufacturing 
processes and materials, activities for clean energy manufacturing, and 
refocused efforts for Industrial Technical Assistance to achieve 
greater results with less funding through more effective leveraging of 
funding for deployment partnerships. A new Energy Innovation Hub on 
critical materials will be competed through the Industrial Technologies 
program. The FY 2012 request also includes $588 million to accelerate 
research, development and deployment of advanced vehicle technologies, 
working in concert with biomass RD&D to reduce the use of petroleum and 
greenhouse gas emissions.
    Better Buildings Initiative for Commercial Energy Savings-The 
President's Better Buildings Initiative is focused on achieving a 20 
percent improvement in commercial buildings' energy use by 2020. The 
initiative will include many new components to achieve this goal. The 
following are supported in the Department's FY 2012 request: launch of 
the Race to Green competitive grant program for states and municipal 
governments to encourage higher standards for commercial energy 
efficiency, which is funded within the Buildings Technologies Program; 
a new pilot loan guarantee program to support energy efficiency 
retrofits for buildings that serve as community assets; and increased 
R&D funding for building technologies. The Department intends to work 
with the business and academic communities to make their organizations 
leaders in saving energy.

Office of Electricity Delivery and Energy Reliability: Enabling a
Clean Energy Economy
    The Office of Electricity Delivery and Energy Reliability (OE) is 
responsible for leading national efforts to modernize the electric 
grid, enhance the security of energy infrastructure, and facilitate 
recovery from disruptions to the energy supply. The Department's FY 
2012 budget request for OE of $238 million, a 38% increase over the FY 
2010 appropriation, represents a clear and determined effort to 
accelerate the transformation of one of the Nation's key enablers of a 
clean energy economy - the electricity delivery system.
    The U.S. electricity delivery system was built on technology that 
was developed early in the 20th century and designed for the demands 
and challenges of that era. Today, this aging and often congested 
system is facing many new and complex challenges that require 
considerable improvements in the physical and technological components 
of the system. In order to alleviate the stress on the system from 
increasing demand for electricity and to enable greater use and 
integration of renewable and distributed resources, all while 
maintaining the reliability, security, and affordability of electric 
power, research and development breakthroughs and new energy management 
approaches are critical in the areas of transmission and distribution, 
energy storage, and cyber security.
    OE's FY 2012 budget request provides $193 million for research and 
development in these critical areas to bring the next generation of 
grid technologies closer to deployment and commercialization. The 
increased investment reflects the President's vision and OE's role in 
competing in a worldwide technological race. As such, with $20 million 
in FY 2012, OE will establish a new Energy Innovation Hub, or in the 
words of President Obama, one of ``the Apollo projects of our time.'' 
The Smart Grid Technology and Systems Hub will bring together a 
diverse, multi-disciplinary group to develop an integrated approach to 
enhancing smart grid technologies and systems. OE will also expand its 
advanced modeling capabilities to include other system layers in order 
to provide a more in-depth system understanding. The energy storage 
program will expand to aggressively support the deployment of grid-
scale energy storage technologies with new demonstrations, and the 
cyber security program will continue to focus on the development and 
integration of secure control systems.
    The budget request continues to support Permitting, Siting, and 
Analysis (PSA) with $8 million to develop and improve policies, state 
laws, and programs that facilitate the development of electric 
infrastructure needed to bring new clean energy projects to market, and 
to provide technical assistance to states and regions. It also supports 
Infrastructure Security and Energy Restoration (ISER) with $6.2 million 
to enhance the reliability and resiliency of critical energy 
infrastructure and to facilitate recovery from energy supply 
disruptions.

Office of Environmental Management: Meeting Commitments and Making 
        Progress
    The mission of the Office of Environmental Management (EM) is to 
complete the safe cleanup of the environmental legacy brought about 
from over six decades of nuclear weapons development, production, and 
Government-sponsored nuclear energy research. This cleanup effort is 
the largest in the world, originally involving two million acres at 110 
sites in 35 states, dealing with some of the most dangerous materials 
known to man. EM continues to pursue its cleanup objectives within the 
overall framework of achieving the greatest comparative risk reduction 
benefit and overlaying regulatory compliance commitments and best 
business practices to maximize cleanup progress. To support this 
approach, EM has prioritized its cleanup activities:

        <bullet>  Activities to maintain a safe and secure posture in 
        the EM complex

        <bullet>  Radioactive tank waste stabilization, treatment, and 
        disposal

        <bullet>  Spent nuclear fuel storage, receipt, and disposition

        <bullet>  Special nuclear material consolidation, processing, 
        and disposition

        <bullet>  High priority groundwater remediation

        <bullet>  Transuranic and mixed/low-level waste disposition

        <bullet>  Soil and groundwater remediation

        <bullet>  Excess facilities deactivation and decommissioning

    The FY 2012 budget request for $6.13 billion will fund activities 
to maintain a safe and secure posture in the EM complex and make 
progress against program goals and compliance commitments by reducing 
the greatest risks to the environment and public health, using science 
and technology to reduce lifecycle costs, and reducing EM's geographic 
footprint by 90 percent by 2015. EM continues to move forward with the 
development of the capability for dispositioning tank waste, nuclear 
materials, and spent (used) nuclear fuel. The budget request includes 
the construction and operation of three unique and complex tank waste 
processing plants to treat approximately 88 million gallons of 
radioactive tank waste for ultimate disposal. It will also fund the 
solid waste disposal infrastructure needed to support disposal of 
transuranic and low-level wastes generated by high-risk activities and 
the footprint reduction activities.
    EM carries out its cleanup activities with the interests of 
stakeholders in mind. Most importantly, EM will continue to fulfill its 
responsibilities by conducting cleanup within a ``Safety First'' 
culture that integrates environment, safety, and health requirements 
and controls into all work activities to ensure protection to the 
workers, public, and the environment, and adheres to sound project and 
contract management principles. EM is also strengthening its project 
and planning analyses to better assess existing priorities and identify 
opportunities to accelerate cleanup work. Working collaboratively with 
the sites, EM continues to seek aggressive but achievable strategies 
for accelerating cleanup of discrete sites or segments of work. In 
addition, functional and cross-site activities such as elimination of 
specific groundwater contaminants, waste or material processing 
campaigns, or achievement of interim or final end-states are being 
evaluated.
    After the EM program completes cleanup and closure of sites that no 
longer have an ongoing DOE mission, post closure stewardship activities 
are transferred to the Office of Legacy Management (LM). LM also 
receives sites remediated by the U.S. Army Corps of Engineers (Formerly 
Utilized Sites Remedial Action Program) and private licensees (Uranium 
Mill Tailings Radiation Control Act, Title II sites). Post closure 
stewardship includes long-term surveillance and maintenance activities 
such as groundwater monitoring, disposal cell maintenance, records 
management, and management of natural resources at sites where active 
remediation has been completed. At some sites the program includes 
management and administration of pension and post-retirement benefits 
for contractor retirees.

Loan Programs Office: Helping Finance Clean Energy Deployment
    Innovative Technology Loan Guarantee Program -To encourage the 
early commercial deployment of new or significantly improved 
technologies in energy projects, the Department requests up to $36 
billion in loan guarantee authority for nuclear power facilities and 
$200 million in appropriated credit subsidy to support an estimated $1 
to $2 billion in loans for renewable energy system and efficient end-
use energy technology projects under section 1703 of the Energy Policy 
Act of 2005. The additional loan guarantee authority for nuclear power 
projects will promote deployment of new plants and support an 
increasing role for private sector financing. The additional credit 
subsidy will allow for investment in the innovative renewable and 
efficiency technologies that are critical to meeting the 
Administration's goals for affordable, clean energy, technical 
leadership, and global competitiveness.
    The FY 2012 budget also requests $38 million to evaluate 
applications received under the eight solicitations released to date 
and to ensure efficient and effective management of the Loan Guarantee 
program. This request is expected to be offset by collections from 
borrowers authorized under Title XVII of the Energy Policy Act of 2005 
(P.L. 109-8).
    Advanced Technology Vehicle Manufacturing Program -The Department 
requests $6 million to support ongoing loan monitoring activities 
associated with the program mission of making loans to automobile and 
automobile part manufacturers for the cost of re-equipping, expanding, 
or establishing manufacturing facilities in the United States to 
produce advanced technology vehicles or qualified components, and for 
associated engineering integration costs.
    Better Buildings Pilot Loan Guarantee Initiative for Universities, 
Schools, and Hospitals -To spur investment in energy efficiency 
retrofits for buildings which serve as assets to our communities, the 
Department requests $100 million for loan guarantee subsidy costs to 
support up to $2 billion in loan authority for universities, schools, 
and hospitals. This pilot program is one component of the President's 
Better Buildings Initiative and would fund cost-effective technologies 
and measures to assist universities, schools, and hospitals save on 
energy usage and associated energy costs. The Department also requests 
$5 million for administrative expenses to carry out the program. The 
request is subject to the enactment of legislation authorizing this 
program.

Office of Nuclear Energy: Investing in Energy Innovation and Technical 
        Leadership
    The Department is requesting $852.5 million for the Office of 
Nuclear Energy (NE) in FY 2012 - a decrease of 0.6 percent from the FY 
2010 current appropriation. NE's funding supports the advancement of 
nuclear power as a resource capable of meeting the Nation's energy, 
environmental, and national security needs by resolving technical, 
cost, safety, proliferation resistance, and security barriers through 
research, development, and demonstration as appropriate. Currently, 
nuclear energy supplies approximately 20 percent of the Nation's 
electricity and over 70 percent of clean, non-carbon producing 
electricity. Over 100 nuclear power plants are offering reliable and 
affordable baseload electricity in the United States, and they are 
doing so without air pollution and greenhouse gas emissions. NE is 
working to develop innovative and transformative technologies to 
improve the competitiveness, safety and proliferation resistance of 
nuclear energy to support its continued use.
    The FY 2012 budget supports a balanced set of research, 
development, and deployment (RD&D) activities. This program is built 
around exploring, through its R&D technology and other solutions that 
can improve the reliability, sustain the safety, and extend the life of 
current reactors; improvements in the affordability of new reactors to 
enable nuclear energy to help meet the Administration's energy security 
and climate change goals; development of sustainable nuclear fuel 
cycles; and minimization of risks of nuclear proliferation and 
terrorism.
    NE is requesting $125 million for Reactor Concepts Research, 
Development and Demonstration. This program seeks to develop new and 
advanced reactor designs and technologies. NE is also requesting $67 
million for the Light Weight Reactor SMR Licensing Technical Support 
program, which will support cost-shared design certification and 
licensing activities for two light water reactor-based designs. Small 
modular reactors are a technology that the Department believes has the 
promise to help meet energy security goals. Work will continue on R&D 
for the Next Generation Nuclear Plant to support demonstration of gas-
cooled reactor technology in the United States. The program also 
supports research on Generation IV and other advanced designs and 
efforts to extend the life of existing light water reactors.
    The FY 2012 request includes $155 million for Fuel Cycle Research 
and Development to perform long-term, results-oriented science-based 
R&D to improve fuel cycle and waste management technologies to enable a 
safe, secure, and economic fuel cycle. The budget also requests $97.4 
million to support the Nuclear Energy Enabling Technologies program, 
focused on the development of cross-cutting and transformative 
technologies relevant to multiple reactor and fuel cycle concepts. The 
Crosscutting Technology Development activity will focus on a variety of 
areas such as reactor materials, creative approaches to further reduce 
proliferation risks, and establishing advanced modeling and simulation 
capabilities to complement physical experimentation. The Transformative 
Nuclear Concepts R&D activity supports, via an open, competitive 
solicitation process, investigator-initiated projects that relate to 
any aspect of nuclear energy generation ensuring that good ideas have 
sufficient outlet for exploration. Modeling and Simulation Energy 
Innovation Hub, supported within this program, will apply existing 
modeling and simulation capabilities to create a ``virtual'' reactor 
user environment to simulate an operating reactor and is a prime 
example of the type of crosscutting, transformative activity that will 
enhance many research areas within NE. NE will also continue its 
commitments to investing in university research, international 
cooperation, and the Nation's nuclear research infrastructure - 
important foundations to support continued technical advancement.
    Office of Fossil Energy: Sustaining American Energy Options through 
U.S. Ingenuity The FY 2012 budget request of $521 million for the 
Office of Fossil Energy (FE) will help ensure that the United States 
can continue to rely on clean, affordable energy from traditional 
domestic fuel resources. The United States has 25 percent of the 
world's coal reserves, and fossil fuels currently supply over 80 
percent of the Nation's energy.
    The Department is committed to developing technologies and 
providing technology-based options having public benefits including 
enhanced economic, environmental and energy security impacts. In FER&D, 
the emphasis, in keeping with Presidential priorities, is in supporting 
long-term, high risk initiatives targeted at carbon capture and storage 
as well as advanced energy systems and on cross-cutting research.
    In addition, $122 million of FE's $521 million request will be to 
provide for national energy security through the continued operations 
of the Strategic Petroleum Reserve. The budget proposes to sell $500 
million of SPR oil in order to provide operational flexibility in 
managing the Reserve.
    The National Nuclear Security Administration: Leading Global 
Partners on Nonproliferation by Securing Vulnerable Nuclear Materials; 
Reaffirming Commitment to Stockpile Modernization The National Nuclear 
Security Administration (NNSA) continues significant efforts to meet 
Administration and Secretarial priorities, leveraging science to 
promote U.S. national security objectives. The FY 2012 President's 
budget request for NNSA is $11.8 billion; an increase of 5.1 percent 
from the President's FY 2011 Request. The five-year FY 2012-2016 
President's Request for the NNSA reflects the President's global 
nuclear nonproliferation priorities and his commitment to modernize the 
U.S. nuclear weapons complex and sustain a strong nuclear deterrent, as 
described in the 2010 Nuclear Posture Review (NPR) Report, for the 
duration of the New START Treaty and beyond. The NNSA's defense and 
homeland security-related objectives include:

        <bullet>  Ensure that the U.S. nuclear deterrent remains safe, 
        secure and effective while implementing changes called for by 
        the 2010 NPR and the New START Treaty

        <bullet>  Broaden and strengthen the NNSA's science, technology 
        and engineering mission to meet national security needs

        <bullet>  Transform the Nation's Cold-War era weapons complex 
        into a 21st century national security enterprise

        <bullet>  Work with global partners to secure all vulnerable 
        nuclear materials around the world and implement the 
        President's nuclear security agenda expressed in the May 2010 
        National Security Strategy and the Nuclear Posture Review 
        report

        <bullet>  Provide safe and effective nuclear propulsion for 
        U.S. Navy warships

    The FY 2012 budget request of $7.6 billion for the Weapons 
Activities appropriation provides funding for a wide range of programs. 
Requested activities include providing direct support for the nuclear 
weapon stockpile, including stockpile surveillance, annual assessments, 
life extension programs, and warhead dismantlement. Science, Technology 
and Engineering programs are focused on long-term vitality in science 
and engineering, and on performing R&D to sustain current and future 
stockpile stewardship capabilities without the need for underground 
nuclear testing. These programs also provide a base capability to 
support scientific research needed by other elements of the Department, 
the federal government national security community, and the academic 
and industrial communities. Infrastructure programs support facilities 
and operations at the government-owned, contractor-operated sites, 
including activities to maintain and steward the health of these sites 
for the long term and construct new facilities that will allow the 
United States to maintain a credible nuclear deterrent. The unique 
nuclear security expertise and resources maintained by NNSA are made 
available through the National Laboratories to other Departmental 
offices, agencies and to the Nation for security and counterterrorism 
activities.
    The Weapons Activities request is an increase of 8.9 percent over 
the President's FY 2011 Request. This level is sustained and increased 
in the later outyears. The multi-year increase is necessary to reflect 
the President's commitment to maintain the safety, security and 
effectiveness of the nuclear deterrent without underground nuclear 
testing, consistent with the principles of the Report on the Plan for 
the Nuclear Weapons Stockpile, Nuclear Weapons Complex, and Delivery 
Platforms (known as the ``1251 Report'') and the Stockpile Management 
Program as stipulated in Sections 1251 and 3113(a)(2) of the National 
Defense Authorization Act of Fiscal Year 2010. Increases are provided 
for direct support of the nuclear weapon stockpile, for scientific, 
technical and engineering activities related to maintenance assessment 
and certification capabilities, and for recapitalization of key nuclear 
facilities. The President's Request provides funding necessary to 
protect the national resource of human capital at the national 
laboratories through a stockpile stewardship program that exercises and 
retains these capabilities.
    The FY 2012 request for Defense Nuclear Nonproliferation (DNN) is 
$2.5 billion; a decrease of 5.1 percent from the President's FY 2011 
Request. This decrease reflects completion of long-lead procurements 
for the Mixed Oxide Fuel Fabrication Facility (MOX) and Waste 
Solidification Building (WSB). It also reflects our decision to await 
an agreement between the U.S. and Russia on detailed implementation 
milestones prior to requesting additional U.S.-pledged funding to 
support Russian plutonium disposition. The Administration prioritizes 
U.S. leadership in global nonproliferation initiatives as directed 
through the National Security Strategy and has advanced this agenda 
through commitments from global partners during the 2010 Nuclear 
Security Summit. In addition to the programs funded solely by the NNSA, 
Defense Nuclear Nonproliferation programs support interagency and 
international efforts to protect national security by preventing the 
spread of nuclear weapons and nuclear materials to terrorist 
organizations and rogue states. These efforts are implemented in part 
through the International Atomic Energy Agency, the G8 Global 
Partnership against the Spread of Weapons and Materials of Mass 
Destruction, and the Global Initiative to Combat Nuclear Terrorism.
    DNN supports the President's goal to secure vulnerable nuclear 
materials around the world within four years. The Global Threat 
Reduction Initiative's emphasis in FY 2012 is to convert domestic and 
international nuclear reactors from weapons-usable highly enriched 
uranium fuel to low-enriched uranium fuel (LEU); while preserving our 
capability to produce the critically needed Molybdenum 99 isotope. The 
FY 2012 President's request for International Nuclear Materials 
Protection and Cooperation reflects selective new security upgrades to 
buildings and sites in accordance with the President's goal to secure 
vulnerable nuclear materials around the world within four years, as 
well as enhancements and sustainability support for previous work. The 
Fissile Materials Disposition program continues domestic construction 
of the MOX Fuel Fabrication Facility scheduled to come online in 2016; 
and design for the pit disassembly and conversion capability to provide 
it with plutonium oxide feedstock.
    The President's request of $1.2 billion for Naval Reactors is an 
increase of 7.8 percent over the President's FY 2011 Request. The 
program supports the U.S. Navy's nuclear fleet, comprised of all of the 
Navy's 72 submarines and 11 aircraft carriers, which constitute 45 
percent of the Navy's combatants. The U.S. relies on these ships every 
day, all over the world, to protect our national interests. The budget 
provides funding increases for the Ohio Class Replacement submarine to 
design and develop required submarine reactor plant technologies. R&D 
is underway now, and funding during this Future Years Nuclear Security 
Program is critical to support the long manufacturing spans for 
procurement of reactor plant components in 2017, and ship construction 
in 2019. Resources are also requested in FY 2012 to support design work 
for the recapitalization of the spent nuclear fuel handling 
infrastructure and refueling of the Land-based prototype.
    The Office of the Administrator appropriation provides for federal 
program direction and support for NNSA's Headquarters and field 
installations. The FY 2012 request is $450.1 million; a 0.4 percent 
increase over the President's FY 2011 Request. This provides for well-
managed, inclusive, responsive, and accountable organization through 
the strategic management of human capital, enhanced cost-effective 
utilization of information technology, and integration of budget and 
performance through transparent financial management practices. The 
increase reflects additional federal oversight for construction of the 
Pit Disassembly and Conversion project, the Uranium Processing 
Facility, and the Chemistry and Metallurgy Research Replacement 
Facility.

      Biography of Secretary Steven Chu, U.S. Department of Energy

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Steven Chu, distinguished scientist and co-winner of the Nobel 
Prize for Physics (1997), was appointed by President Obama as the 12th 
Secretary of Energy and sworn into office on January 21, 2009.
    Dr. Chu has devoted his recent scientific career to the search for 
new solutions to our energy challenges and stopping global climate 
change--a mission he continues with even greater urgency as Secretary 
of Energy. He is charged with helping implement President Obama's 
ambitious agenda to invest in alternative and renewable energy, end our 
addiction to foreign oil, address the global climate crisis and create 
millions of new jobs.
    Prior to his appointment, Dr. Chu was director of DOE's Lawrence 
Berkeley National Lab, and professor of Physics and Molecular and Cell 
Biology at the University of California. He successfully applied the 
techniques he developed in atomic physics to molecular biology, and 
since 2004, motivated by his deep interest in climate change, he has 
recently led the Lawrence Berkeley National Lab in pursuit of new 
alternative and renewable energies. Previously, he held positions at 
Stanford University and AT&T Bell Laboratories.
    Professor Chu's research in atomic physics, quantum electronics, 
polymer and biophysics includes tests of fundamental theories in 
physics, the development of methods to laser cool and trap atoms, atom 
interferometry, and the manipulation and study of polymers and 
biological systems at the single molecule level. While at Stanford, he 
helped start Bio-X, a multi-disciplinary initiative that brings 
together the physical and biological sciences with engineering and 
medicine.
    Secretary Chu is a member of the National Academy of Sciences, the 
American Philosophical Society, the Chinese Academy of Sciences, 
Academica Sinica, the Korean Academy of Sciences and Technology and 
numerous other civic and professional organizations. He received an 
A.B. degree in mathematics, a B.S. degree in physics from the 
University of Rochester, a Ph.D. in physics from the University of 
California, Berkeley as well as honorary degrees from 10 universities. 
Chu was born in Saint Louis, Missouri on February 28, 1948. He is 
married to Dr. Jean Chu, who holds a D.Phil. in Physics from Oxford and 
has served as chief of staff to two Stanford University presidents as 
well as Dean of Admissions. Secretary Chu has two grown sons, Geoffrey 
and Michael, by a previous marriage.
    In announcing Dr. Chu's selection on December 15, 2008, President 
Obama said, ``the future of our economy and national security is 
inextricably linked to one challenge: energy. Steven has blazed new 
trails as a scientist, teacher, and administrator, and has recently led 
the Berkeley National Laboratory in pursuit of new alternative and 
renewable energies. He is uniquely suited to be our next Secretary of 
Energy as we make this pursuit a guiding purpose of the Department of 
Energy, as well as a national mission.''
    Chairman Hall. I thank you, Dr. Chu, and I will recognize 
myself for five minutes.
    My first question, and I may not have enough time to ask 
the second question, but the centerpiece proposal in President 
Obama's State of the Union address is his plan to require 80 
percent of U.S. electricity to be derived from so-called clean 
energy sources, actually not defined anywhere that I can find 
so far. A study by economists at Suffolk University found that 
the cost of a clean energy standard similar to what the 
President is proposing would be almost $200 billion a year and 
over $4 trillion over a 20-year period, and that is, to be fair 
with you, a study of a similar plan, not this identical plan 
but of a similar plan. Other studies might estimate these 
figures to be higher or lower but as a matter of basic 
economics, doesn't the President's proposal amount to mandating 
Americans to pay significantly higher electricity costs? And in 
terms of restricting fossil fuel usage and raising electricity 
prices, wouldn't the clean energy sources have the same impact 
as the Administration's now-defunct cap-and-trade proposal?
    Secretary Chu. Thank you, Mr. Chairman. I am not aware of 
that study, but first let me define what we mean by clean 
energy. Solar, wind, new hydro, nuclear, those are all clean 
energy, and we get full credit. If you looked at combined-cycle 
gas which generates about twice the electricity for the same 
amount of carbon emission, we would get half credit. If one 
develops coal with carbon capture and sequestration and suppose 
you capture 90 percent of the carbon emissions, that would 
count was 90 percent credit. So based on that rough definition, 
we are now currently generating 80 percent--40 percent of our 
energy as clean. Nuclear is--20 percent of the electricity is 
nuclear. Hydro is about 6-1/2, seven percent. The rest is a 
little bit of solar but the rest is predominantly wind and a 
little bit of geothermal.
    So the President's goal of reaching 80 percent from 40 
percent by 2035 anticipates, number one, that there will be a 
new investment in nuclear energy, and this is something we 
would like to grow as part of the portfolio. We project that 
more solar and photovoltaic and solar thermal will be in play 
and also more natural gas. When we develop clean coal 
technologies and we are going to be working very hard over the 
next decade to bring it down to affordable price, we think 
investments in clean coal technologies will kick in. So it is 
very important that that longer date, 2035, allows for the 
development of clean coal technologies, allows for the long 
planning process and construction process of nuclear.
    In terms of how much it costs, we don't really know but I 
will tell you that I talk to the utility companies, in the 
coming decades, for example, Duke Energy tells me, Jim Rogers 
at Duke says in the next 50 years every power plant that they 
now own will have to be replaced and so the issue is when you 
have a long time horizon going from 2011 to 2035, you will have 
to replace a large fraction of these power plants and so it is 
in this replacement and building up as you--because, for 
example, many of our coal plants are over 40 or 50 years old. 
They are on their last legs. As you replace them with newer 
options, this is a very natural thing and so we want to give 
credit to get this going.
    Now, my last comment about the clean energy standard is 
that there are estimates of $1 trillion to $2 trillion of 
capital sitting on the sidelines because of the uncertain 
conditions of what the United States should invest in, and what 
the clean energy standard does is, it tells companies, utility 
companies, it tells finance companies, this is the direction we 
are going, you will have a market. If you build an efficient, 
cost-effective way of generating electricity, you have a 
market, we can invest in you, and all that capital can come off 
the sidelines and immediately create jobs.
    Chairman Hall. Do you agree that it will cost significantly 
more than that, or have you had that opinion?
    Secretary Chu. I would want to get back to you on that and 
have, for example, the EIA and other analyses and give you a 
synopsis of what we think the costs will be. I would be happy 
to do that.
    Chairman Hall. I appreciate it. I want to follow up. A core 
objective of the President's clean energy proposal is obviously 
addressing climate change. We look for that all the time. If 
the President's plan is significantly or successfully, I might 
say, implemented and we do indeed achieve the 80 percent, just 
double what you set out as 40 percent clean energy goal, how 
much effect could it have on climate change?
    Secretary Chu. Well, the purpose of this is twofold. The 
major purpose of this clean energy standard is to unleash 
capital off the sidelines to allow for the private sector 
investment in clean energy technologies and also in energy 
efficiency which is turning very rapidly into a worldwide race 
for the development of these technologies. So the primary 
driver for what we are doing is, we are in a race now but the 
world is going to need newer, cleaner sources of energy, a more 
energy-efficient infrastructure. And this creates an incentive 
for business to invest their capital, private sector capital, 
in order to win in this race.
    Now, having said that, if you look at what the President is 
proposing as a goal, 80 percent by 2035, this is more or less 
equivalent to a decrease in carbon dioxide that would put us on 
a path by mid-century 2050 of reducing the carbon dioxide by 50 
percent. So it is in line with the original goal of doing that 
but the most important thing I want to return back to and 
emphasize is that we are now in a worldwide race. You see 
China, Japan, India, South Korea, European countries racing to 
develop these technologies because they know there is going to 
be a world market for them.
    Chairman Hall. I thank you. I have gone over my time by a 
few seconds. I would like to ask how much effect do you really 
believe it will have, but I don't have the right to ask that 
because I am out of time. I thank you.
    Now I recognize Mrs. Johnson for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Chu, as we attempt to cooperate in cutting some of the 
needed spending, one of the first things that we try to do is 
look at duplication. There is a lot of concern about 
duplicative programs both within DOE and other agencies. In 
terms of research, how would you define duplication?
    Secretary Chu. Well, how would I define duplication? If 
certain research programs, for example, within Energy or within 
the Office of Science or ARPA-E are funding more or less the 
exact same type of research. You would not define it as there 
is solar research that could be short-term solar research tied 
to ARPA-E funds. You only have two years to get the private 
sector to pick it up. Very, very different than the solar 
research being funded in the Office of Science where you are 
mostly tackling basic fundamental science problems that can go 
to the next new thing. And so it sounds like the same, solar 
research, but it is a very different type of funding.
    Ms. Johnson. There is also a growing sentiment that a 
number of the proposals for cuts will be applied to R&D. To me, 
that is one of the most important things that we can do in 
order to stay in the world race. What do you consider the most 
dangerous and growing sentiment for wasteful spending or 
investment in the future? How would you categorize some of the 
suggestions or recommendations or even what was passed in the 
C.R. two weeks ago?
    Secretary Chu. Sure. All right. The President recognizes 
and certainly Congress recognizes that we are going to have to 
make such tough choices. The deficit is a huge problem and it 
has to be tackled. But having said that, if you just do across-
the-board uniform cuts, this is not the way to run the country, 
this is not the way to manage the multiple varied programs. You 
have to make tough choices on what you want to invest in, and 
in this I am reminded of what Norm Augustine, a very legendary 
CEO and chair of Lockheed Martin had said, also well known in 
Congress on both sides of the aisle, very well respected, and 
he was CEO of Lockheed Martin and he said in his all 
experiences as an engineer, as a CEO and chair, if you have an 
overweight--in times of austerity, it is much like if you 
design an airplane and you realize the airplane is overweight 
and the way to trim the weight is to cut off an engine, that 
that would not do well.
    And so you have to recognize what are going to be the 
engines that are driving the prosperity of our country, and the 
President has said very clearly that there are two engines. One 
engine is education, particularly science, engineering and 
mathematics education, STEM education, and the other engine is 
energy because it is no secret that many other countries around 
the world, most notably China, have recognized that this is a 
hugely growing technology opportunity and the country that 
leads in energy technologies in this multi-trillion-dollar 
market will be a very wealthy country, that you can wait and 
let other countries go first and we can be importing those 
technologies that we will need or we can be the front leader 
and be exporting those. And so in this race for prosperity that 
will create high-value manufacturing jobs in the United States. 
The President has said we have to pay attention to this. This 
is an internationally competitive race that we are in, and that 
was our Sputnik moment.
    Ms. Johnson. Thank you. My time is up, but I need to ask 
one more question. Could you describe any type of impressive 
research that might be going on in China right now or India or 
any place?
    Secretary Chu. If the chairman permits.
    Chairman Hall. Without objection.
    Secretary Chu. All right. Thank you. I would say if you 
look in terms of impressive research, they are superb in taking 
some existing technology and driving it better, so for that 
reason they now have the highest speed rail service in the 
world. They have captured that lead from France and from Japan. 
They now can produce the highest voltage and highest capacity 
transmission lines in the world, and they want to sell it to 
the United States. They are building about half of the nuclear 
reactors in the world today, over 25. They are the dominant 
force in silken photovoltaics or photovoltaics of any kind in 
the world. They have now taken over the leadership in exports 
of solar cells. They build the highest-efficiency coal plants 
with all the scrubbers and are now beginning to export them. 
Their coal plants are now 46 percent efficient of energy into 
electricity out. Our most advanced coal plants, I don't even 
think break 40 percent. And so I would say in every energy 
sector that I know, they are either getting into the lead or 
have become the leaders, and they see a worldwide export 
market.
    Chairman Hall. The chair recognizes the gentleman from 
California, Mr. Rohrabacher, for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    You just mentioned the President's characterization of the 
Sputnik moment, and let me just note, we are not in a Sputnik 
moment, we are in a deficit spending moment when you see that 
for the last two years straight and now for a third year in a 
row this Administration is proposing a level of deficit 
spending that is a shock to the system. We are talking a 
trillion and a half dollars a year more in debt for our 
children to pay, and I am suggesting to you that shock has had 
a major impact and has to make a major impact on our decision-
making.
    The answer that you just gave to the Ranking Member's 
question, of those technologies that you have just outlined for 
us that China is racing ahead in terms of putting them into 
place and into practice, how many of them are based on research 
that the Chinese did rather than research that was done in the 
United States or other countries that they have taken advantage 
of that research?
    Secretary Chu. Okay. Thank you for the question. Well, let 
me go down the list. In nuclear technology, the United States 
made the first nuclear reactor as part of the Manhattan Project 
but leadership and very quickly in the 1970s and early 1980s 
constructed a fleet of roughly 100, a little over 100 civilian 
nuclear reactors but we don't own that leadership today and 
have not owned it for the last couple of decades.
    Mr. Rohrabacher. Right.
    Secretary Chu. France----
    Mr. Rohrabacher. But in terms of China, how much of those 
which you just suggested, you had a list, are any of them based 
on the research that was done in China and not in the United 
States or what we are seeing here is vast amounts of research 
and--basically what we do is research and development here but 
we are unable to actually put it in place while our adversary 
in China takes it and runs with it. The problem isn't research 
and development and the creativity of the American people. Our 
problem is that we have got government in the way of people, 
entrepreneurs and investors and people who would like to use 
this technology here, and I would hope that perhaps the 
Department of Energy would put some of its effort into breaking 
through some of these barriers, one I would like to bring up 
with you today, and that is, we need to make sure if--the 
President's goal of having pollution-free energy sources is a 
wonderful goal. Whether we agree with you on global warming or 
not, that is irrelevant. The fact is, all of us should want 
less pollution in the air and cheaper energy.
    So with that understanding, nuclear energy seems like 
something we could all come together on because at least the 
liberal left in this country has at least accepted the fact 
that nuclear energy needs to be something we look at. We have 
got new gas-cooled reactors that offer great promise, small 
gas-cooled reactors. How much money is being spent or how much 
emphasis, should I say, is being put on gas-cooled reactors as 
compared to light water reactors, which are the reactors of the 
past?
    Secretary Chu. Yes, we are--we run a program called Next 
Generation Nuclear Reactors, and those are the gas reactors we 
are talking about. We are funding that very steadily, and I 
think in 2012 we hope to make a decision as to whether we go 
forward with building a prototype of those reactors. I share 
your enthusiasm in the sense that those gas-cooled reactors 
used as heat sources instead of electricity generation could be 
a very valuable source of energy that could supplement some of 
the energy we use, for example, natural gas in order to 
generate heat. And so we are very supportive of also small 
modular reactors, right size reactors where you can plop them 
down in places which don't have the infrastructure----
    Mr. Rohrabacher. With that said, we need help from the 
Department of Energy in breaking down the licensing process 
that is preventing the technology that we already--we have a 
capability of building those reactors right now. There are 
several companies that come to mind. We could go into 
production of this now except the licensing process will take a 
decade. We need to cut that down because we are spending a 
trillion dollars a year more than we are taking in, and this 
would certainly contribute to wealth creation in the United 
States. So I would hope that we can work together in breaking 
down that licensing process.
    Secretary Chu. Thank you. Part of our 2012 budget request 
is for monies to help in the engineering to get licensing which 
is NRC, it is their job, but we will help those companies 
license the small modular reactors.
    Mr. Rohrabacher. Well, let us make sure the Chinese don't 
end up in production of these things that we are inventing 
right here when we could go into production ourselves and we 
just break down these governmental barriers.
    Thank you very much, Mr. Chairman. Thank you, Dr. Chu.
    Chairman Hall. Thank you, sir. The chair now recognizes the 
gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman, and thank you, 
Secretary Chu. You probably don't remember, but I do, the first 
time I met you, I happened to be on the Stanford campus the day 
you won the Nobel Prize, and the last time I think I saw you 
was also on the Stanford campus when we toured the Stanford 
linear accelerator.
    I ask this not just to you as the Secretary, but as the 
really respected scientist that you are what the impacts of the 
C.R., if extended throughout the year, would have on the 
science that is in the Bay area. When we toured the Stanford 
linear accelerator, we saw what they were doing in terms of 
understanding at an atomic level, photosynthesis, for example. 
I think about the National Ignition Facility over in Lawrence 
Livermore, and it is a major scientific experiment; but, 
obviously if it is successful, it will have a profound impact 
on the energy picture for the world. Persis Drell has indicated 
that basically she thinks that the linear accelerator would 
have to simply shut down under the C.R. budget. What would the 
impact be on our science future if that were to occur, Dr. Chu?
    Secretary Chu. Well, if you are speaking of the current 
2011 C.R.----
    Ms. Lofgren. That is correct.
    Secretary Chu. --and if you look at what the proposed 2011 
budget is, what the C.R. was going to bring it back to, in 
fact, that we are halfway through the year, it would be 
something on the order of 40, maybe as high as a 50 percent cut 
in the Office of Science. At that level, and in some parts of 
the Office of Science it could be far more, so at that level I 
think Persis Drell's assessment is correct, that many of the 
user facilities like the new free electron laser, X-ray laser 
that SLAC has would have to be shut down for some time. A lot 
of graduate students and postdocs might have to be let go. This 
would--so as Ranking Member Johnson said, it would have a 
devastating impact on the number of jobs but the ripple effect 
would be much deeper because if the students, the engineering 
and science students see that federal funding of science can go 
up and down, bouncing like a yo-yo, they could easily assume--
because most of the research dollars in science and engineering 
are ultimately at the Ph.D. level and master's level ultimately 
come from federal government. They would say this is not the 
career for me, or if they have a Ph.D. they perhaps look abroad 
to other countries.
    So the ripple effect of unsteady up-and-down and certainly 
draconian cuts in science would be far more devastating than 
just the many thousands of jobs that would be lost or the 
accelerators that would be turned down and those accelerators, 
as you well know, are really engines of innovation. It is those 
accelerators which have changed the paradigm of how we do 
medical research and it is those accelerators that have changed 
the paradigm of how we do materials research. In those 
accelerators, we have made discoveries that have allowed us to 
improve upon the lithium ion battery in such a dramatic way. 
You know, the United States is--this is another one of these 
good stories where the United States of America invents the 
lithium ion battery, the dominant battery for plug-in hybrids 
and electric vehicles. Very quickly technology leadership went 
first to Japan, Sony, and now it is a big race between Japan 
and Korea. The year 2000, we made some basic science 
discoveries that all of a sudden say we can improve those 
batteries, we can improve the lifetime of the batteries, the 
energy density of the batteries, the safety of the batteries 
and it is less expensive to produce.
    So we are in the process of recapturing that technology 
lead, and this is going to be a multi-billion-dollar business 
and so we need those science facilities. You don't want to ship 
them out.
    Ms. Lofgren. On the NIF, we have made a huge investment 
over the years in the NIF. What would this do if we project the 
C.R. across as the budget for the year, what would it do to 
that project?
    Secretary Chu. Well, NIF comes from a different bucket of 
money.
    Ms. Lofgren. Okay.
    Secretary Chu. This is funded not by the Office of Science. 
It is funded actually by the NNSA. And I think the NNSA in the 
C.R. is more protected because it is seen--its major mission is 
nuclear security, and to that extent, there would be less of an 
impact. I think the Office of Science impact would be pretty 
devastating.
    Ms. Lofgren. I will just say that I know my time is almost 
up, Mr. Chairman. My daughter was an undergraduate at Stanford 
and her roommate was a science major and my daughter was an 
English major, and when they graduated my daughter decided to 
go to law school where after three years she was able to earn 
more than a Member of Congress; whereas, her science roommate 
is still toiling away earning very little trying to get her 
Ph.D., and unless we incent science, the people who love 
science really won't stay. I also think the impact you said, 
the devastating impact this would have on the future of 
science, which is on the young scientists, is something that 
very much needs to be considered. I am glad that you raised it.
    I yield back, Mr. Hall.
    Chairman Hall. I hope your daughter is as fine and helpful 
to her profession as you have been to this Committee.
    Now at this time I recognize Mr. Bartlett, one of the 
senior members of this Committee from Maryland, for 5 or 10 
minutes, whatever he wants.
    Mr. Bartlett. Thank you very much.
    Dr. Chu, thank you very much for your phone conversation 
yesterday. I have a couple of questions relative to the super-
duty truck that I will submit for the record, sir, but I want 
to turn to your attention to some slides, the first of which I 
hope will show up on the screen.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bartlett. Next slide.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bartlett. Okay. I would like you to take a look at this 
slide, sir. This is a 2008 slide from the World Energy Outlook. 
Several interesting things about it. By 2030, they show the 
total amount of liquid fuels that we will have as about 106 
million barrels a day. They show the crude oil that we will 
have from the fields that are now producing crude oil producing 
only about less than a fourth of that and they show huge 
contributions of oil from fields that we have now discovered 
but are too expensive to develop, and then a big red wedge 
there of crude oil from fields yet to be found. There is a dark 
red wedge there of enhanced oil recovery.
    Now, if we can see the next chart.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bartlett. And this is from exactly the same 
organization, and it is just two years later and some very 
remarkable differences occur. First of all, they no longer 
project that we are going to have 106 million barrels of oil a 
day by 2030, they now say we are going to have 96 million 
barrels a day by 2035, five years later, and they have only 
about a fourth of the conventional oil production coming from 
fields that we now pump. They have increased amounts of oil 
coming from fields yet to be developed and fields yet to be 
found. If you will look at the total amount of crude oil that 
they say will be available, it rises only very slightly between 
now and 2035.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bartlett. If you look at the next slide, and if you 
have only one slide that you could look at to inform you about 
oil, it would be this slide. It is an old slide. You can see 
that it was a 2004 slide. And it shows the discoveries of oil 
through the past and you see them in the horizontal bars--I am 
sorry, in the vertical bars there, huge discoveries starting 
back in the late 1930s and the 1950s and 1960s, and notice from 
1980 on we have always pumped more oil than we found, and they 
were projecting in this chart that we were going to reach peak 
oil production--that is that dark blue one in the previous two 
slides--we were going to reach that about when we did, about 
2006 or 2007 or so, and that is exactly when it happened. That 
is now generally conceded to by just about every authority in 
the world.
    Look over on the left over there at the ordinate, you see 
10 billion barrels. That is a pretty big find of oil. We need 
to put that in perspective. It has been a long time since we 
found very many fields with more than 10 billion barrels of 
oil. Every 12 days, sir, as you know, the world uses a billion 
barrels of oil. Every 12 days, a billion barrels of oil. That 
is about 6th-grade arithmetic. Which means that if you have a 
10-billion-barrel find, which is a big find, that will last the 
world 120 days. Big deal.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bartlett. And now if you look at the fourth slide, sir, 
and this shows the world according to oil, and Saudi Arabia 
needs to be diminished of it because Wikileaks a couple weeks 
ago indicated they have been fibbing about how much oil they 
have. I suspect much of the OPEC world has been fibbing about 
it. But, you know, there we are using a fourth of the world's 
oil, and we have only two percent of the world's oil. We are 
pumping eight percent of the world's oil, which means we are 
going to pump down very quickly.
    Sir, isn't this pretty much the perfect storm at just the 
time that the world has reached its maximum oil production? And 
sir, if you believe that we are going to fill in those wedges 
with oil to be pumped from fields that we have now discovered 
and fields yet to be found, you probably believe you are going 
to solve your personal economic problems by winning the 
lottery. I think the odds are about the same. This is kind of 
the perfect storm, sir. We now have peak oil and we have the 
developing world leading it, trying to recover from a 
recession. We have the developing world, China and India, using 
hugely increased amounts of oil. We have the Wikileaks a couple 
weeks ago indicating that there is considerably less oil out 
there than we thought was out there, and now we have this 
unrest in the Middle East. Shouldn't there be a plan B, sir, in 
case the wildly optimistic projections of the World Energy 
Outlook and the EIA and the IEA are not true?
    Secretary Chu. Okay. I think there should be a plan A.
    Mr. Bartlett. I don't even see a plan A. Plan A is business 
as usual, and that ain't going to work, sir.
    Secretary Chu. So let me make a few comments. First, thank 
you for the slides. If you go back three slides at the world--
that one. I will agree with you. We are near the peak of peak 
conventional oil. I think most oil companies will acknowledge 
that. What that means is, conventional oil is oil on land, 
easy-to-access oil, and what this projects is that there are--
what it is doing is, it is logging in current reserves. Current 
reserves are bankable assets. I do feel that----
    Mr. Bartlett. That is the next chart, sir. It shows the 
reserves.
    Secretary Chu. Right. But in this one, it essentially shows 
just a very slight increase if you include all forms of oil, 
oil yet to be discovered, oil produced in fields and 
unconventional oil meaning tar sands oil, very thick bituminous 
oil, things of that nature. And so certainly what this shows is 
that the oil supplies are plateauing at best and they are going 
to be plateauing and yet we see a dramatic rise in the world 
wealth of countries, especially in developing countries like 
China and India, where people--China is now the biggest car 
market in the world, 14, 15 million cars a year being sold in 
China, maybe 16 by now.
    So what does that tell you? And as you go to harder-to-
access oil, deep offshore oil, oil in the Arctic, more 
inconvenient oil, the lifting costs increase, so what that 
tells me is that the price of oil in the following decades 
because of the increased demand, because of our higher lifting 
costs of oil, the price of oil will go up. So our plan A is to 
recognize the price of oil will go. It will become a commodity 
in higher demand and so we should do whatever we can to 
decrease our dependency on oil, certainly our dependency on 
foreign oil but oil, period, because oil is, you know, as you 
noted, we consume 25 percent of the oil of the world. We only 
have two percent of the reserves.
    So from that alone, you say so what do we do. Our plan A is 
to increase the fuel efficiency of cars and really push the 
pedal to the floor on that one. For the first time in 25 years, 
we have improved the EPA mileage standards but we have to do 
better in the following years.
    Point two: We can electrify the vehicles. If you begin to 
electrify vehicles using batteries which I have a very strong 
belief that within four to five years we will be testing 
batteries to be put in cars that can enable us to drive 300 
miles on a single charge in a midsized car and a battery that 
costs maybe a third of what it costs today. Okay. Under those 
conditions, you don't think about buying an electric car. Pure 
economics tell you, you just go buy an electric car. An 
electric car you plug in, you are using energy generated in the 
United States to charge your car, so you offset the oil 
dependency that way.
    And finally, we are doing very promising research in 
biofuels. Already work done in the national labs is being 
licensed by companies in the private sector. They are doing 
testing demos of this, and we think, you know, the first thing 
is you use sugars and starches to get to ethanol but well 
beyond ethanol drop-in substitutes for diesel fuel and for 
gasoline for jet fuel. A company, Amers, is developing--is 
building a pilot plan now for a drop-in diesel fuel substitute. 
You feed it sugar, bacteria, make diesel fuel. They think they 
can sell it at $4 a gallon, diesel fuel, but that is just the 
beginning. Four dollars a gallon is still a little bit high, at 
$4 a gallon, a profit. You know, when you sell it at $3 a 
gallon, it is profit and now we are talking. And as you know, 
diesel fuel is about $3.50 a gallon now.
    So the combination of biofuels made from woody material and 
agricultural waste, the electrification of vehicles. We also 
have gas supplies and so a number of companies are looking at 
delivery vans running off of natural gas. That could be a big 
player too. And all those things decrease our dependency on 
oil, and this is what I call our plan A.
    Mr. Bartlett. Sir, that is all true. Just one moment more, 
Mr. Chairman. That is all true, sir, but your government paid 
for four studies, two of them in 2005, two of them in 2007. 
They all say the same thing, that peaking oil was imminent with 
potentially devastating consequences. The Hirsch report, the 
big one, said if you didn't start planning for that 2 decades 
before it occurred there were going to be meaningful economic 
consequences.
    Sir, we have run out of time. You don't really believe 
those two blue wedges are going to occur, do you?
    Secretary Chu. Well, actually, I do believe some of it will 
occur, but be that as it may, I think you and I are in total 
agreement. We should be pushing as hard as we can to reduce our 
dependency on oil. We are--you know, $400, $300 billion a year 
is leaking out of our shores to bring in oil.
    Mr. Bartlett. Sir, I am way over time.
    Thank you for your indulgence, Mr. Chairman. I yield back.
    Chairman Hall. The senior citizen asked good questions and 
we got good answers. I don't believe you all are totally in 
agreement but your 20 minutes is up.
    Secretary Chu. I apologize, Mr. Chairman.
    Chairman Hall. It was good. You were giving good answers 
and it is in the record and I think if we can keep anybody 
awake that long they are going to enjoy reading everything we 
do.
    Is Mr. Wu back? All right. Then I think we ask Mr. Miller, 
and I understand Mr. Miller has a request of the Committee.
    Mr. Miller. Yes, Mr. Chairman. I know that Representative 
Giffords has the affection and respect of every member of this 
Committee. She has been a very engaged, conscientious member. 
Her office has asked that I ask a question on her behalf, and I 
certainly want to accommodate her. And then if I could have 
perhaps not the full 20 minutes but a little more than five so 
I could ask the questions I intended to ask.
    Chairman Hall. Without objection, you know you can do that. 
We want her questions asked, and she is living proof that 
prayers are answered, and thank you for representing her.
    Mr. Miller. And our prayers continue.
    Secretary Chu, you have already mentioned that Ms. Giffords 
was a great advocate for solar power. President Obama at his 
State of the Union spoke of a ``Sputnik moment,'' and 50 years 
ago President Kennedy called for an effort to go to the moon by 
the end of the decade. You called that the ``moon shot'' and 
you called for an effort that you called the ``sun shot'' to 
make solar electricity much more competitive in the next 
decade, specifically to bring down the cost by 75 percent, and 
to raise our once-dominant position in the market for solar 
voltaics. It was 43 percent in 1995. It is now six percent.
    Ms. Giffords was a great advocate, as you have said. She, a 
couple years ago in the last Congress, pushed forward the Solar 
Technology Roadmap Act, which Congress, following her lead, 
this Committee and Congress adopted, and I am sure that she 
would like to know how the SunShot Initiative does compare to 
her Solar Technology Roadmap Act that she advocated for so 
effectively a year or two ago and how you plan to implement 
that SunShot Initiative.
    Secretary Chu. Okay. Thank you for the question. I think in 
our SunShot Initiative, what we did is, we looked at what 
industry's own roadmaps were and we canvassed many companies 
both here and abroad, and where they think they could drive 
down the prices, and this is the full price, the cost of 
electricity. It is not the cost of the module itself but the 
electronics, the mounting, the land use, everything, 
insulation. And they found that within a decade one could 
reduce the cost, the full all-in cost by a factor of two, 50 
percent reduction. And we thought that that was not quite good 
enough, and we began to talk with them and asked the question 
what could we do in the Department of Energy and what could 
they do in industry to bring that cost down more aggressively 
before the end of this decade, would it be possible to reduce 
the cost by 75 percent. Why 75 percent? That is the cost where 
solar power becomes competitive with any form of energy that we 
have today, the cheapest fossil fuel, and at that point the 
country that develops that has all of a sudden got a clear 
winner that you can export all over the world, the country and 
companies that develop that technology. That price point will 
be a very magical price point.
    Remarkably, in this game plan that we started developing--
and we didn't know which technologies would win. There is 
silken, there is crystal and silk and various thin-film 
technologies. There is even solar thermal. And all of these we 
looked and we said okay, what we can do is construct a program 
to give everyone a shot at this. They can all apply for grants. 
But where you see a clear driver down to this magical price. 
And the reaction in industry was actually amazing. I was 
talking with the CEO of Sun Power, a former professor of 
Stanford, Dick Swanson, who is now making the most efficient 
solar modules in the world, over 20 percent efficient, and he 
said, you know, you were great because after your guys started 
talking to us and we went and we started talking to our 
engineers, they began to realize yes, they can do better. This 
is amazing, that, you know, your spurring us and the back and 
forth between our scientists and their scientists, you know 
what, we can do better than we were planning to do. And so what 
this is now is a technological race among various approaches in 
the United States where the winner will reap many rewards. And 
so this is a very exciting thing.
    When President Kennedy following President Eisenhower's 
speech about Sputnik and, you know--I might remind this 
committee, by the way, when Sputnik was first launched, his 
reaction to Sputnik is to say we have to invest in science and 
technology and education in science. He did not say let us put 
more money into rocket science and the military. It was a very 
long, far-reaching goal and said this is what it is about, the 
Russians have more scientists and engineers and the quality of 
their education is increasing and for the long-term benefit of 
the country this is what we have to invest in. It helps to have 
a five-star general to say this. And that started the National 
Science Foundation and all these other things.
    So now returning back to the sun shot, we are very excited 
about this so going back to Kennedy, when Kennedy said before 
the end of the decade we will have a man on the moon, I am sure 
there are people in the audience and in America and worldwide 
who said that guy is nuts, how are we going to do this, but he 
wasn't. Before he made that announcement, he had a lot of 
detailed discussions with his scientific team, with the 
engineers and with the NASA folks to say no, this is bold, this 
is a long reach but it is achievable.
    Mr. Miller. Thank you. With my remaining 15 minutes, I 
wanted to ask about research generally.
    Obviously energy research fared very badly in the 
Continuing Resolution passed by the House three weeks ago, and 
the argument by those who oppose the research was that it was 
really applied research, not basic research. I am not sure they 
are really any more favorably disposed towards basic research. 
But it is not like there is a bell that goes off when basic 
research crosses over into applied research, and the horizon of 
when some of this stuff may be commercially practical is pretty 
far out there, even if it is strictly speaking basic research.
    What would happen to energy research generally if DOE was 
out of the mix of doing what would be called applied research, 
and is it really true that energy research by your department 
is crowding out--is it skewing--the marketplaceis it picking 
winners or losers, is it really crowding out research the 
private sector would otherwise be doing?
    Secretary Chu. The short answer is no but let me follow up 
by giving you a few examples. If you look, for example, at what 
we are funding in the applied research area in things like 
better air conditioning or better manufacturing practices for 
photo cells, this is in our ARPA-E program. We made our first 
tranche of funds. We invested in, I think, something like 37 
projects, 37 companies, and these companies already half a 
dozen receiving grants on the $3 million to $4 million for two 
years and then after that it is over. You have to go get money 
from another program, the private sector somewhere. Half a 
dozen companies have already done the research that they can 
then go back to the investment community and say look, it is 
working, and those half a dozen companies have received over 
$100 million of private sector funding because they proved 
using our research dollars to do first-stage proof of 
principle, the private investors said we think it is going to 
work, here is some more money.
    This is exactly what we want to do in the private sector. 
Were we crowding out the money? No. In fact, if they couldn't 
prove to the private sector, the investment community, the VC 
people that this is actually viable by doing that first little 
experiment, they wouldn't have gotten the money. But as soon as 
they get the money--I mean, we well imagined that in many of 
these companies that first $100 million will actually be 
generating hundreds and hundreds of millions of dollars as it 
looks more and more likely that it will be a winner.
    Mr. Miller. I thank the Chair for his indulgence.
    Thank you, Secretary Chu.
    Chairman Hall. I thank you, and thank you, Mr. Secretary.
    I might remind the Members that we are even and even now on 
time, and if we can kind of stick to our five minutes out of 
respect to the other Members who are waiting. I will recognize 
the chairman of I&O, Dr. Broun, for his five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Secretary Chu, thank you for being with us here today. This 
Committee requested documents regarding the Administration's 
decision to cancel the Yucca Mountain projects on May 7, 2009, 
February 3, 2010, July 20, 2010, and again on February 14, 
2011. Until I became chair of the Investigation and Oversight 
Subcommittee, I received little more than press releases from 
your department and copies of letters from other Members of 
Congress in response to these requests. Understanding that I 
have requested these documents since May of 2009, when can I 
expect a full and a final production of these documents, and do 
you intend to withhold any of these documents?
    Secretary Chu. No. My understanding is, we have now turned 
over thousands of pages of documents to you and your staff.
    Mr. Broun. Sir, we have not gotten the documentation and I 
would appreciate your doing so as quickly as possible.
    Secretary Chu. I will look into it but we----
    Mr. Broun. If you intend to withhold documents, would you 
provide an index to identify each document withheld, to state 
the exemption claimed and explain how disclosure would damage 
the interests protected by the claimed exemption?
    Changing courses a little bit, in September 2008, you 
stated, ``Somehow we have to figure out how to boost the price 
of gasoline to the levels in Europe.'' Well, gas is projected 
to go to $5 or $6 a gallon just this summer. We have an 
unstable Middle East with potential of having a marked 
reduction of Middle East oil being available. This will 
increase the price of all goods and services and especially 
food and other necessary things. It is going to destroy jobs 
here in this economy and hurt our economy tremendously.
    Sir, when is this Administration going to stop prohibiting 
the development of our own God-given natural energy resources 
here in the United States and start to pursue an all-of-the-
above energy policy and develop those particularly here in the 
United States such as ANWR, OCS and those onshore?
    Secretary Chu. Well, first, in my role as Secretary of 
Energy, everything we are doing is to develop alternative fuels 
to help drive down the price of oil because as we are 
developing those----
    Mr. Broun. Sir, that may be true, but we have got a lot of 
oil available and it is not just about oil, it is natural gas, 
it is coal, it is everything that we have, and this 
Administration has been prohibiting the development of our own 
resources. Congressman Bartlett showed us some slides that I 
have seen and you have seen and all of us on this Committee 
have seen, but this Administration is focusing on alternative 
sources of energy, and I applaud that. We all applaud trying to 
have more nuclear energy and that sort of thing but we have 
energy sources that are available here today, and this 
Administration is blocking the retrieval of those energy 
sources.
    I just beg of you, sir, work to start allowing us to tap 
into all these energy resources including the oil and gas we 
have today, and this Administration has been blocking the 
production and development of those energy resources. It is 
critical for our economy, it is critical for jobs, it is 
critical for everything. So please, please, continue to look 
for alternative sources, I applaud that, but we need an all-of-
the-above energy policy, not just looking to solar and wind and 
battery production and those types of things. We have oil. We 
have gas. We have coal. We have other sources. We have nuclear 
energy. It is very difficult to get licensing. We need to 
pursue an all-of-the-above energy policy, and I don't see this 
Administration pursuing that, and I hope and pray for the good 
of all the United States' citizens, for employees and employers 
that we do so.
    My time is up. Thank you so much.
    Chairman Hall. Thank you for staying within your five 
minutes.
    The gentlelady from Ohio, Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank 
you, Dr. Chu.
    Dr. Chu, I have one question for you. One of the issues 
that I am most concerned with is the effects of energy 
generation on public health which disproportionately affects 
low-income urban communities like my district in Cleveland, 
Ohio. Congress has spent time recently debating EPA regulations 
and the Clean Air Act. One way to keep our air healthy is by 
developing new and cleaner methods for energy generation. Could 
you please describe for me within my five minutes some of DOE's 
research and development activities that have contributed to 
cleaner technology with a focus on public health?
    Secretary Chu. Sure. Thank you. If the chairman would 
permit, if I could spend maybe 30 seconds answering the last 
question that Mr. Broun asked me?
    Chairman Hall. Well, he----
    Secretary Chu. He is still here, so it is good. I think 
developing oil and gas resources in the United States is part 
of the Administration policy, and the President did announce 
opening access to more drilling in the Gulf with impeccable 
timing. He announced that two weeks before the Macondo well 
blowout. And we see that, and I agree with you. I think we do 
need an all-of-the-above. You can develop oil and gas in the 
United States but remember that is two percent of the known 
reserves in the world and we are 25 percent. So as part of an 
integrated policy, we feel that that is appropriate. And so----
    Mr. Broun. I meant ANWR, and further putting out----
    Ms. Fudge. I just want you to know this is not on my time, 
Mr. Chairman.
    Chairman Hall. We are going to start your time all over 
again.
    Secretary Chu. Okay. So--and--so as long as it is part of 
an integrated policy, we see it is part, and all-of-the-above 
is needed.
    Mr. Broun. Thank you.
    Secretary Chu. So in response to your question, 
Congresswoman, I think if you look at the methods we are doing, 
first, the Department of Energy has done a lot of research in 
the capture of sulfur dioxide, nitrogen oxides, mercury 
particulate matter. We were very helpful in the Clean Air Act 
of 1992, I believe it was, in helping develop those 
technologies that actually made it possible to capture the 
pollutants that were creating the acid rain that was killing a 
substantial part of our forests and lakes and rivers, 
particularly in the Northeast, and that has been very 
successful. The costs are about one-quarter, one-fifth of what 
they initially were estimated to be and they are still 
plunging. So the initial costs were overestimates because we 
tend to underestimate how good technology becomes when given a 
task.
    Going forward, if you look at the types of technologies we 
are now investing in research both the oxycombustion were you 
burn it in carbon dioxide atmosphere and capture that both in 
gasification, you are creating power plants that are 
essentially pollution-free. The amount of particulate matter, 
the mercury, SOx and NOx that are going to be released is going 
to be near zero. And so this will go a long way to helping with 
all the respiratory illnesses and deaths we now suffer in the 
United States from those pollutants and the mercury that has 
clearly invaded our rivers and lakes.
    Ms. Fudge. Okay. I would just ask that as you go forward, 
though, that you pay particular interest to what goes on in 
minority communities because I believe that you will find the 
incidence of the effects of these things that you just talked 
about are higher in communities that are minority communities. 
Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Hall. I thank you for yielding back.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Secretary, Chuck Fleischmann. I represent Tennessee 
three, which has the great national treasure of ORNL and Y12. 
Thank you for being here today.
    Mr. Secretary, it is encouraging to see your support for 
nuclear power, specifically for small modular reactors or what 
we call SMRs, which will be an important source of energy for 
the increasing electricity demands of our country. Recently I 
met with Deputy Secretary Poneman. He visited with me and we 
talked about the importance of an American nuclear industry. In 
my district, the Tennessee Valley Authority is looking to add 
additional nuclear power to its system using SMR technology. 
The Oak Ridge National Laboratory and the Y12 weapons complex 
are big energy consumers and require safe, affordable and 
reliable power for major science and national security needs. 
It is impressive that your department is making progress on a 
cost-share program but there is also a regulatory hurdle which 
has been brought to my attention.
    The Department of Energy apparently is prohibited by a 
federal directive from long-term contracts with utility 
companies on power purchase agreements. This is a serious 
roadblock. How will DOE handle the need for long-term power 
purchase agreements, sir?
    Secretary Chu. All right. I will certainly look into that. 
There are numerous roadblocks like that. I think it has to do 
with utility companies and traditional power providers 
protecting their turf, and so we will look into it and see if 
we can come to some accommodation. I certainly know within the 
TVA, I have met with the head of the TVA, that they are very 
keen. They have a number of very old coal plants that are 
really at the end or past the end of their life, very 
inefficient plants, highly polluting plants, and they look at 
small modular reactors as a possible substitute solution to 
that. They are small enough that they can be dropped in 
substitutes for these coal plants because the electricity 
transmission distribution infrastructure is matched to the 
smaller reactors.
    And so we are very keen on that. In fact, in Oak Ridge 
there is the Cinch River site, which could be an ideal first 
adopter of small modular reactor there that could power all of 
Oak Ridge, and as you know, we are investing--in the fiscal 
year 2012 budget we are asking for funds, and we hope Congress 
can give us these funds so that we can help a number of 
companies accelerate the licensing and processing, to help them 
with their engineering drawings that the NRC would demand, but 
I plan to look into that and get back to you on the regulatory 
hurdles of what would prevent us from generating power.
    Mr. Fleischmann. Thank you. I have one follow-up question 
in my time remaining. Recently I visited the Oak Ridge National 
Lab and I had the pleasure of a district tour and saw the 
Jaguar, which was I think until recently the world's fastest 
unclassified computer. It was a wonderful tour. Last November, 
though, the Chinese edged out the United States in 
supercomputing speed. China holds the record on two of the top 
five fastest computers of the world. That one measurement, Mr. 
Secretary, doesn't tell the full story since the United States 
maintains an impressive lead, I think, in supercomputing with 
half of the world's top 500 supercomputers located in the 
United States.
    My question, Mr. Secretary, is, what is the Department's 
long-term strategy to ensure that we don't cede our Nation's 
premier leadership position in advanced computing?
    Secretary Chu. Yes. We in our 2012 budget are requesting 
funds to start a new sustained project in going to the next 
level. The Jaguar computer is what we call a petaflop. A 
petaflop is 10 to the 12 floating point operations per second 
or more. That is a lot of floating point operations, 10 to the 
12. No, this is 10 to the 15. Sorry. And so the next 
thousandfold development of a computer that is a thousand times 
faster than the Jaguar is something that we would like to 
develop in our 2012 budget. We have culled money from other 
parts of the Department including the National Security Agency 
as well as Office of Science to develop a roadmap and a plan to 
get us to this new exascale, so called exascale computer.
    We believe that these high-performance computers are not 
only incredible--we need them for our nuclear security and for 
the science but we have also found recently in the last, 
certainly in the last half decade that these simulations are so 
good, you can actually design things like a new diesel internal 
combustion engine and you can simulate the very complex 
dynamics of what is happening in this diesel engine and all the 
chemical reactions that are occurring at this, you know, 
thousandth of a second and shorter time scales and so Cummins 
Diesel was able to use our supercomputers to design an engine 
to skip the prototype design and they went right to 
manufacturing, and saved the development of a new engine 15 
percent of the cost.
    We are using these supercomputers to design the next 
generation of nuclear reactors the same way because we are 
looking towards the next generation in carbon capture and 
sequestration but what we are finding is that the simulation 
ability of these computers is so good now, you begin to skip 
design stages where you make it, see if it works, twiddle 
around with it, make it, see if it works, twiddle around with 
it. You make it on a computer, see if it works on a computer 
and you can twiddle a lot better on a computer. And so this is 
a real economic opportunity and we do not want to lose that 
leadership.
    Mr. Fleischmann. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Hall. I thank you.
    I now know how you won the Nobel Prize. When they asked you 
a question, by golly, you answered it. And I am going to give a 
Nobel Prize for patience to Mr. Sarbanes but he left. If he 
comes back, we will recognize him first next time, okay? At 
this time I recognize Mr. McNerney, the gentleman from 
California.
    Mr. McNerney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for appearing before us. Your 
discussion on the lithium batteries hit home personally because 
of my experience in industry. I spent 20 years developing wind 
energy technology, and because of poor government policy, I saw 
that technology go overseas, particularly to Germany at first 
and then to India and produce jobs in those countries, real 
jobs that should have been produced here in this country. So I 
am very concerned about that deja vu happening again with our 
current Continuing Resolution.
    Now, I have always thought that our universities are the 
premier--University of California, University of Texas, 
University of North Carolina and so on, Stanford and Harvard--
for producing an environment of innovation and technology 
development and so on, and I would like to see what your 
opinion is in terms of how this sort of budgeting will affect 
those institutions vis-a-vis comparison to universities in 
other countries.
    Secretary Chu. Yes. Thank you for that question, very much 
so thank you. The research universities in the United States 
are still the greatest research universities in the world, bar 
none. There is still something very, very good about the way we 
educate our graduate students. It may be deeply in our culture 
because in research it is very different than textbook 
learning. You don't know what the answer is. There is no 
authority to tell you this is right and that is wrong. And so 
you actually have to be probing and you are constantly 
questioning, being able to question authority, and for whatever 
reason, the American research universities are very good. So 
the most innovative, creative things, and the world recognizes 
this. But they are also working very hard to try to duplicate 
those atmospheres in other countries.
    Now, specifically your question, if we start throttling 
back in funding for not only the Department of Energy but the 
NSF, the NIH and others but the Department of Energy, I think 
most people don't realize is the largest funder of the physical 
sciences in the United States. It has funded the work of more 
Nobel laureates than any other funding agency in the world, and 
it has trained scores of Nobel laureates. When I was a graduate 
student at Berkeley, a postdoc at Berkeley, I was also a member 
of Lawrence Berkeley National Lab. That lab alone helped start 
the careers of 30 people that went on to get Nobel Prizes, a 
national laboratory. And so the funding cuts that we see, I see 
the whole thing being put at risk where the real engine driver 
for all this innovation, which is the research universities and 
those national labs, are then put at risk. And so one can come 
back 10 or 20 years from today and say oops.
    Now, China is working very, very hard to develop their 
universities. They have now begun to lure back Chinese who have 
gotten their Ph.D.s and postdocs and have been professors here 
or work in companies here to come back now in their 30s and 40s 
to assume leadership positions in academia and industry and so 
these are not the people who are 65 but these are the people in 
their--because they see great opportunity there, and there is 
great opportunity there. So we cannot take for granted all the 
people that came to get educated in the United States. If they 
see oh, no more research funding in the United States, they are 
going to have to look elsewhere.
    Mr. McNerney. I have time to ask at least one more 
question. Lawrence Livermore Laboratories is adjacent to my 
district and many of the employees that work there live in my 
district. I have been following the National Ignition Facility 
progress with great interest. Could you talk a little bit about 
the potential for fusion technology and our leadership in that 
area?
    Secretary Chu. Sure. The NIF facility, it was initially 
funded for defense so that if you wanted to actually test what 
is happening at these very high energies and implosions, this 
is a way of doing it without nuclear testing. And so we can--
and it is part of our stockpile stewardship program. Now, 
having said that, the fact is that these lasers, what they do 
is, there is a little pellet, really small, hundreds of 
microns, huge laser power then generates X-rays that compress 
this. The Office of Science has now gotten very interested in 
this because to be able to bring this fantastic amount of 
energy and power to actually create a microthermonuclear 
explosion. If--now, many things have to happen. That means that 
you are now creating fusion energy, and NIF within a very short 
time will go what they call where you get a huge output, much 
more power out than in, and you will get a thermonuclear 
implosion of these little itty bitty pellets. And so there is a 
group there at Livermore who thinks that it may be possible 
that this could lead to a source of fusion power.
    Now, having said that, I think this is still very 
researchy. You have to develop a laser system that is 
economical, that can work 10 or 20 times a second instead of 
one or two times a day but it has to work very reliably at that 
rate because this is turning on our lights and keeping our 
lights on. And so it is in the future but we have that 
possibility and so again, in this vein of research, there is 
another approach to fusion energy.
    Mr. McNerney. Thank you, Mr. Chairman. I would like to 
dedicate the negative balance to the other side.
    Chairman Hall. Thank you. You are pretty close and I 
respect you for it.
    At this time I recognize Mrs. Biggert, the gentlelady from 
Illinois, for five minutes.
    Mrs. Biggert. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for being here today. It is nice 
to see you again, and I apologize for not being here for your 
testimony as I have been in a markup and we haven't even gotten 
through the first amendment of the first bill.
    But I just wanted to ask you a couple questions, and I 
think that you know my long history of support for the Office 
of Science and I have always maintained that scientific 
leadership in this country will create the jobs of the future 
and keep our country competitive, and I know you agree with 
that. But considering the budget decisions that we face, how 
would you strategically conserve spending with the department 
while preserving programs that are integral to our scientific 
enterprise and international leadership? And specifically basic 
energy sciences and computing come to mind. And China's latest 
supercomputer is a threat to our leadership computing 
capabilities and we are on the cusp of outpacing them unless 
U.S. research is not prioritized responsibly. So do you have 
any suggestions that might help us strategically prioritize our 
basic research programs within the budget constraints that we 
face?
    Secretary Chu. Sure. First of all, you know, whatever 
Congress decides to give the Department of Energy, I hope I 
would be asked to be a partner in the funding decisions, but I 
will tip my hand and tell you what my leanings are. If we have 
a diminished budget, I would tend to push to make less 
investments on the deployment side, the very applied side, the 
parts where we are helping industry get it out in the field. We 
would just hope that we can structure policies that would 
induce private investments. I think the most precious part of 
our budget is the part that will be continuing to lay the seeds 
that give you the innovations five years and ten years and 15 
years, and that is the Office of Science. And next to the 
Office of Science is ARPA-E but ARPA-E is not in competition 
with the Office of Science. ARPA-E is an applied research 
program, a much shorter term, and it should be seen as part of 
the applied area, okay. The Office of Science does investment 
in a different time scale.
    Mrs. Biggert. I am glad to hear that you say that because I 
think that the risk science really is in the Office of Science.
    Secretary Chu. Yes. You weren't here when I was bragging 
about an event that happened in Argonne National Laboratory. I 
didn't identify it as Argonne National Laboratory but the 
research in the Singatron facility there that led to the new 
lithium ion battery and the addition of manganese was research 
done at Argonne National Laboratory and it was done and was 
considered basic research but within a very short time it was 
licensed and its findings went into the Chevy Volt battery. And 
so that is a beautiful example of how science can actually 
deliver the goods, sometimes in much shorter time scale than 
one would ever expect.
    Mrs. Biggert. Well, I just had the opportunity to drive a 
Chevy Volt this morning, so it is quite a car. I didn't drive 
it too fast or too far away. They wouldn't let me put it on the 
road for racing.
    Secondly, I wanted to ask about the term ``energy 
efficiency.'' It is something that many of us have embraced as 
an all-of-the-above energy approach, and I understand the 
department is trying to reduce its energy and emissions 
footprint as part of a department-wide initiative, an Executive 
Order across all sectors of the government. So under those 
guidelines, is there any concern for our large-scale user 
facilities and the amount of power that they would consume?
    Secretary Chu. Yes, there is a great deal of concern for 
those because in many instances, they do consume a lot of 
power. Now, the good news is, for example, going to 
supercomputers, the Jaguar computer at Oak Ridge, for example, 
or the supercomputer at Argonne consume tremendous amounts of 
power but the Department of Energy is very focused on 
developing research so the next generation of supercomputers on 
a per-unit calculational basis should be consuming several 
hundred times less power per operation, and we think this is 
possible. In fact, it is not only possible, if you don't 
decrease the energy appetite a hundred fold, 300 fold, you 
can't actually get to the next level of computing which we 
think we will need. And so we think it is going to--so a large 
part of what we do now when we design new accelerators, new 
computers that consume a lot of power is, the power management 
and the energy consumption is a very integral part of what is 
going on.
    Mrs. Biggert. And would that affect the advanced photon 
source too?
    Secretary Chu. Yes, but remember, the other thing we would 
like to do is, we would like to get a few of these things. We 
would like to get a few small modular reactors going, so all of 
a sudden now you have clean power than can deliver as well 
because there are certain things--but even in accelerators, the 
last generation built accelerators, for example, the Large 
Hadron Collider at Cern, it is superconducting and it actually 
consumes less power than one of the little injectors. And so 
again, this attention to--we can't use our entire science 
budget to run the electricity is very much part of the culture 
now.
    Mrs. Biggert. I thank you. My time is expired.
    Chairman Hall. I thank the gentlelady.
    I will now quickly recognize the gentleman from Michigan, 
Mr. Clarke.
    Mr. Clarke. Thank you, Chairman Hall, and I want to thank 
the gentlelady from Illinois for that great transition 
regarding the Chevy Volt. I represent the district that 
produces the Chevy Volt, and your department has helped promote 
that technology in vehicle electrification that is going to put 
Detroit back on the map. In fact, it is already on the map in 
terms of now developing the best electrified vehicles in the 
world.
    Your department through its basic materials science for 
battery chemistries, your applied research for onboard power 
electronics and also the modeling for preparation of the 
electric charging infrastructure all happens within different 
offices within your department. I am thankful for your support. 
But others might say that this may not be an efficient way to 
allocate department resources. The Government Accountability 
Office, I know they have looked in areas of government where we 
can be more efficient, where we can reduce or eliminate waste 
and duplication. How has your department fared under this GAO 
review?
    Secretary Chu. So far we have fared very well but there is 
no telling what will happen, you know, next week or next month. 
I think the GAO review was very kind to us, but to your point 
about duplication, let me tell you what we are doing.
    You mentioned the battery program. The battery program is 
supported in three major areas. There is the more basics 
physics chemistry part of the batteries which is in the Office 
of Science in the energy efficiency renewable section, we have 
a very strong battery group, and now ARPA-E has a battery 
group. And so in the last half year and going forward forever 
on--and I was in a review for about an hour, a little over an 
hour looking at the detailed things they were planning and what 
they were supporting and what the prospects were, but all three 
groups were in the room, and going forward what we are doing 
is, we--if you think any sector, batteries, transmission 
distribution, biofuels, advanced biofuels, photovoltaics, what 
we are doing is, we are putting into teams that cut across the 
formal organizational lines. For example, in our SunShot, we 
hired a young engineer, youngish engineer, Ramesh. We got him 
to come to the Department of Energy, give up a little of his 
life to be in charge of SunShot. He just got elected to--you 
know, he is in his 40s. He just got elected to the National 
Academy of Engineering. He had a very good situation. Why would 
he ever want to come to the government? Because he could then 
cut across all these organizations and said we are going to 
have a unified plan to develop how are we going to help 
industry get there and be the winner, and what can we do in the 
Department of Energy, what can we do in the research to fill in 
the spaces where industry might not want to invest in but 
industry tells us this is the most important thing, okay, but 
it may be too forward-looking for them to invest in it, given 
the constraints of their shareholders or their founders.
    So we are tackling this in a very different way because 
what I found when I became the Secretary is there would be a 
very good group in a certain area but they wouldn't even know 
what the groups in another area were doing. Biofuels were in 
the applied area I was looking at--they brought in a very good 
guy who was developing a program. They gave me his plan. You 
know, I take these and I put all sorts of comments and type all 
over it. But then what I did is, I took that plan and I gave it 
to the three directors of the biofuel centers that are 
supported by the Office of Science because they hadn't--this is 
the plan they have, these are my comments, what do you think 
about this, where do you think industry is, where do you think 
this is going. Within two days they come back to me. I take 
those plans and give them back to the applied area and I said 
from here in we are going to be doing it that way. Biofuels has 
now become an integral part of all the areas, and also ARPA-E, 
so that all the expertise then comes together in a room and 
figure out a unified plan and so this is a new way of doing 
business. I think it is the right way of doing it.
    They still have their own particular things, whether short-
term, very short-term applied research or helping with 
deployment or the longer term. They still have their own parts 
but at least they will know intimately what everybody is doing 
and they will coordinate it. And there is actually a very nice 
buzz about that because what people are finding is, there is 
excellence in little bits and pieces that they hadn't known 
before. This I something I learned when I was a young science 
nine years at Bell Labs because as a manager at Bell Labs, that 
was my job: find out what everybody is doing in the whole 
organization and then link up a scientist in my group with 
someone else far away and then let the sparks fly, and so that 
is what is happening.
    Mr. Clarke. Thank you, Secretary, Mr. Chair.
    Chairman Hall. Thank you very much.
    Mr. Clarke. I wonder if I could make one brief point 
regarding Michigan State University.
    Chairman Hall. Without objection.
    Mr. Clarke. Thank you, Mr. Chair. I really appreciate this 
very much. This is just very brief. It is just a transition on 
how we can balance, you know, our efforts between research and 
development and your department has supported--your Office of 
Science has supported researchers around the country, 
especially in Michigan. I want to commend the progress of one 
of the greatest land-grant universities in this country, 
Michigan State University, its work on the facility for rare 
isotope beams, and thank you again for your support. How does 
this proposed budget strike a balance between----
    Chairman Hall. The Secretary will give a brief answer.
    Secretary Chu. Very, very briefly, the proposed budget 
wants to support that and get the construction going on that 
but, you know, it depends on what Congress gives us for the 
budget. I mean, projects like that would be at risk.
    Chairman Hall. Mr. Hultgren of Illinois.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you, Dr. Chu.
    I am concerned about the funding for DOE's Office of 
Science and specifically the high-energy physics program there, 
which is clearly in a period of transition right now. The 
Administration has notified Congress it intends to shut down 
the Tevatron at Fermilab. I met with--and that is ending here 
in fiscal year 2011. I met with Fermilab many times, and I know 
that with that record-breaking machine and all that has been 
accomplished there, Fermilab is ready to transition to new 
programs, one of them including the Long-Baseline Neutrino 
Experiment. The LBNE is to be the anchor project for the Deep 
Underground Science and Engineering Laboratory at the Homestead 
Mine of South Dakota, as you know. It is my understanding that 
the President has proposed $32 million for DUSEL and for LBNE 
in is fiscal year 2012 budget request for DOE. I also 
understand the department stepped in when it became clear that 
a new stewardship agreement would be needed between DOE and NSF 
while a study is conducted and decisions are made on the path 
forward for these projects.
    A couple questions I had just on the situation, and we have 
talked quite a bit about it, of really the importance of having 
basic research and all that our laboratories have brought to 
us. The President's fiscal year 2012 budget request total is 
$797.2 million for high-energy physics overall. It really does 
amount to a freeze at the fiscal year 2010 enacted levels when 
other projects within the Office of Science are slated to 
increase from 21 to 24 percent. My question is, why is there 
such an imbalance in the basic research portfolio of the Office 
of Science?
    Secretary Chu. Yeah, that is a tough decision but let me 
explain what our thinking was on that. First, it does not mean 
we want to see an end to high-energy physics and also 
fundamental nuclear physics and cosmology. Those are very, very 
basic things, and out of that research came amazing things. 
Just the fact that we have particle accelerators that gave us 
Singatrons and light sources and neutron sources, actually its 
roots were in high-energy physics.
    Mr. Hultgren. Right.
    Secretary Chu. And so it is a very, very direct connection 
between what you do in research in one area and how it can 
transform into science or medical research. Right now, yes, we 
are closing down the Tevatron. There was a move to keep it open 
for three additional years because the Large Hadron Collider at 
Cern had a mishap with their magnets, and they thought that if 
you keep that machine running for another three years, maybe 
you can--you know, they are looking for the higs and maybe you 
can square it under and perhaps discover the higs while they 
are fixing their machine, and in the end what happened was, the 
Large Hadron Collider got their machine up and running and in 
the last several months it was--they were able to tweak it up 
and tune it up far faster than we thought they could actually 
get it up. And then if you look at the flots and the number of 
vents coming out of that machine and the higher energy, then 
the decision became very clear. You know, you are not on the 
verge of--they weren't on the verge of anything, and the Large 
Hadron Collider would blow them away.
    So the Department of Energy and the director of the 
laboratory said we shouldn't do this because this is about $35 
million a year to keep it running, we would rather take that 
money and invest it in the high-intensity frontier, which you 
also spoke about. This is using a new machine to create a lot 
of neutrinos to look at the neutrino sector, and we think that 
that is the right decision because this other machine in Europe 
is just--would smoke us.
    And so we want to continue high-energy research in the 
United States. I mean, the sad part, as you know, is, you know, 
we could have maintained leadership in this field had we built 
the Superconducting Super Collider, the SSC, in Texas, but that 
is water under the bridge. We still think high-energy physics--
and the questions in physics and cosmology are asking the most 
primal roots of science, what is matter, what is energy, okay, 
and we think that this is still some of the most exciting 
frontiers in physics but right now we are trying to figure out, 
okay, given this big investment in Cern, which we then fund 
American universities and researchers to go over there, we 
still need something here in the United States that we can call 
our own, and we think that this high-intensity frontier is 
that.
    But we are going through a tough decision. The high-energy 
physics community is wrestling with it themselves, what is the 
best--we don't want just--you know, this is an austere budget 
time so we can't just continue funding on a certain level. When 
the great new thing comes along, then I could easily see us 
coming back up. But right now, that is the plan.
    Mr. Hultgren. Just quickly, I don't--I think it is--I hope 
that happens but I think it is difficult now when the top 
scientists are going to Cern rather than staying here, and I 
hope that is what could happen.
    Mr. Chairman, if I could have just 30 seconds quickly 
specifically on the LBNE?
    I just want to ask you the current status and the 
commitment, are the resources there to be able to continue with 
LBNE and also with DUSEL?
    Secretary Chu. Well, as you know, very quickly, the NSF 
actually started this project and we became partners and then 
the NSF decided not to, and there were three critical 
experiments that we felt we wanted to have continue but again 
in these very hard budget times, we are going to try wrestle 
with--we would like to--it can't be the underground laboratory 
that was envisioned with both NSF and DOE support but we have a 
committee now that is assigned to look at what is the best--
given whatever budgets we get from Congress, what are the 
things we can and can't do. And so that committee has just been 
appointed and they will be reporting back, but they have just 
been formed. But we would like to see it continue the best we 
can. Again, this is about money.
    Mr. Hultgren. Thank you. Just in closing, Mr. Chairman, 
thank you so much, Dr. Chu, and I do really appreciate your 
statements earlier when times are tight, I do think we have to 
make sure that we still have that commitment to basic research 
where the private sector won't necessarily do that work, but 
this is an important function of government. Thank you very 
much.
    Chairman Hall. I was hoping for a yes or no answer but I 
didn't get it.
    Mr. Lujan, we recognize you at this time.
    Mr. Lujan. Mr. Chairman, I appreciate that. I believe that 
the appropriate answer would be yes, Mr. Chairman.
    With that, Mr. Secretary, I want to thank you for being 
here as well, and if you will indulge me, I am going to try to 
get through most of this, Mr. Secretary, and there are a few 
questions within my remarks, and if we are not able to get to 
them, if I could ask that maybe we just get a response in 
writing.
    I very much agree with your and President Obama's drive to 
invest in education and research and development and innovation 
in order to better position our Nation for the future. 
Investing in R&D is key. We have heard it time and time again, 
and especially building off of the closing of my friend that 
just shared some remarks with us. We know that our Nation's 
competitiveness and our national security depend on it, and I 
know you are very well aware of the significant role that the 
people in my district and the people of the State of New Mexico 
play in both of these areas. Still, the future benefits and the 
full benefits of R&D can only be realized by coupling R&D with 
innovation in the marketplace so that there is a seamless 
transition from the advances in basic science and new technical 
capabilities all the way through to new technologies that 
generate new businesses and new jobs. Other countries are 
making good use of our scientific advances and we must do 
better.
    I therefore commend you on your efforts with ARPA-E and the 
hubs to promote innovation in targeted areas of national 
importance. But there is a need to promote innovation and 
technology transfer more broadly from the top to the bottom and 
from the bottom to the top. I along with co-chair Frank Wolf 
have started the Congressional Technology Transfer Caucus to 
help educate Members on the important issues and barriers to 
technology transfer. The Department is home to our Nation's 
national laboratories which serve as an incredible resource for 
both developing new technologies from which new businesses and 
new jobs can spring as well for providing technical assistance 
to businesses. Yet listening to small business owners and 
entrepreneurs leads me to believe that there is much room for 
improvement in the Department's technology transfer activities.
    For example, a very few of the Department's Cooperative 
Research and Development Agreements, otherwise known as CRADAs, 
which is a common mechanism for private equity to work with the 
national laboratory to mature technology, are supported even in 
part by Department funds. Most are 100 percent funded by 
private equity, which is prohibitively expensive for many small 
businesses. Furthermore, the private entity is often required 
to pay out a significant fraction of the cost to the project up 
front before the work will even begin. This too is prohibitive, 
and I understand that there is more need for us to support 
maturation and seed programs by the Federal Government to help 
spur this innovative and ingenuity aspect of the private 
sector.
    I know that your Technology Transfer Coordinator has been 
working with Technology Transfer Working Groups on ways to 
improve the Department's tech transfer activities. One question 
I have, Mr. Secretary, what specific actions do you expect the 
Department to take in the next year to invigorate tech transfer 
activities and to do any of them including dedicating more 
funds and reducing barriers to small businesses?
    Mr. Secretary, recently, as you may be aware, in New Mexico 
we experienced record-breaking freezing temperatures that 
caused a significant increase in the peak for natural gas. The 
increase in demand led to severe disruption in our natural gas 
distribution system, causing outages across the state. This was 
coupled with outages in ERCOT and the Texas energy markets. 
Over 30,000 homes were left without power to heat their homes. 
Currently FERC is conducting an investigation into this. 
Considering this crisis, I would like to emphasize the 
importance of supporting the R&D of natural gas technologies to 
ensure that the overall security of natural gas deliverability 
to systems in New Mexico and across the country, especially 
when we talk about powering our vehicles with this important 
fuel source.
    The recent National Academy of Sciences report, ``Expanding 
Underrepresented Minority Participation: America's Science and 
Technology Talent at the Crossroads,'' makes clear that we must 
continue our efforts to increase minority participation in 
STEM. In 2007, underrepresented minorities comprised 33.2 
percent of the U.S. college-age population and 26.2 percent of 
undergraduate enrollment yet only 17.7 percent of those were 
earning science and engineering bachelor's degrees. I would be 
interested, Mr. Secretary, on hearing on DOE's plans to develop 
a diverse pipeline of STEM professionals in the energy sector, 
especially in light of correspondence both myself and Senator 
Bingaman's office have shared.
    And lastly, Mr. Secretary, I apologize. I am going to have 
to sit to listen to some other responses. In closing, in your 
remarks you highlight the need to accelerate creation of jobs 
from R&D investments by increasing the pace of movement from 
discovery to the marketplace, and I applaud those. What is the 
DOE doing to improve and streamline the mechanisms for 
technology transfer from the national labs, especially to small 
entrepreneurial companies, other than ARPA-E, which has 
targeted investments in a small number of companies and 
technologies? What is DOE's strategy to improve the success 
rate and engaging in the private sector in a technology 
transfer earlier in the R&D cycle?
    Mr. Chairman, I appreciate the indulgence there.
    Mr. Secretary, I look forward to getting those responses 
but applaud you on your efforts on the emphasis with making 
sure that we are taking this seriously. Thank you, sir.
    Chairman Hall. I thank the gentleman.
    Mr. Cravaack, who is going to receive the Nobel Prize for 
patience, he has been here the entire time, I recognize you, 
sir.
    Mr. Cravaack. Thank you very much, sir, I appreciate it, 
and thank you, I appreciate you coming here today.
    I appreciate your comments regarding austere conditions. We 
are as a country definitely in austere conditions, and I am 
finding it very difficult to find the relationship between the 
Department of Energy and Tinkerbell. Put up the ad, please. 
Thank you very much.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cravaack. You have an extensive website geared towards 
educating children and putting out a pretty extensive website 
having children talk to their parents about making sure they 
have Energy Star appliances, programmable digital thermostats 
and home improvements in animated videos. I think it is called 
Save Energy with Tinkerbell and Her Friends, which is, you 
know, I understand it. I am a dad. I get it. But unfortunately, 
we are at a $1.6 trillion deficit, national debt, and $14 
trillion in debt. Right now in your budget you are requesting a 
44 percent increase in the office to fund these efforts, 
according to my calculations. You may be telling me I am wrong 
here by your face. If these are funded, how do we think--you 
know, I question your putting a 44 percent increase in a budget 
on these type of programs when we are in such austere 
conditions as you noted. Do you have any empirical evidence 
that would provide that these advertisements actually change 
habits, parents' behavior and attitudes towards energy 
consumption?
    Secretary Chu. You meant 44 percent increase in this 
budget?
    Mr. Cravaack. Correct, in advertising.
    Secretary Chu. That I wouldn't know about. Is there 
empirical evidence? No. We do have backward empirical evidence 
that advertising to kids to try to get their parents to stop 
smoking was effective.
    Mr. Cravaack. Well, like I said, in these austere times I 
just question whoever put this in the budget, and I question 
what other things are in the budget.
    Switching gears here, what actions do you see, especially 
with the rise of the Chinese developing a deep-water fleet, if 
our supply lines were shut down? Would we have enough domestic 
energy production to be able to counter any type of advancement 
of foreign power?
    Secretary Chu. I am trying to interpret your question. I 
think your question might have been what would happen if we 
didn't have access to imported oil or was your question----
    Mr. Cravaack. Correct me if I wrong. Isn't 70 percent of 
our oil coming from out of state?
    Secretary Chu. No, actually not. The latest number I saw 
was about 51 percent. It is hovering between 50 and 60 percent.
    Mr. Cravaack. My question is, if our shipping lanes were 
shut down, Communist-bloc countries, we believe in maintaining 
free lanes, they believe in shutting them down. So if we had 
our free lanes shut down, our sea lanes shut down, would we be 
able to wage an effective war? Do we have the domestic oil 
supplies ready to go? Do we have the domestic reservoirs ready 
to go? Do we have--can we gear up in enough time to defend this 
country?
    Secretary Chu. Well, actually, I think that I don't see 
that as a real possibility. The United States Navy is by far 
the most powerful Navy in the world, and so----
    Mr. Cravaack. You didn't believe in Pearl Harbor, sir, so I 
would question----
    Secretary Chu. No, I believe in Pearl Harbor. I believe it 
happened.
    Mr. Cravaack. I am a naval officer, retired, 24 years. This 
is an option.
    Secretary Chu. But I do think certainly keeping the lanes 
open is part of the Navy's job and it is because of our 
dependency on foreign oil, and that is actually part of the 
embedded price of oil, if you will, as you well know.
    Mr. Cravaack. Yes, sir. My question, though, is if the sea 
lanes were shut down, would we be able to man our fleet, making 
sure that we would be able to be mobile enough to counter any 
threat? And if not, why are we not developing our domestic 
resources to a point where we can be at that point? And for the 
record, sir, I would like to submit this for the record.
    Chairman Hall. Without objection.

    [The information appears in the Appendix:]

    Secretary Chu. So very quickly to respond to that, you 
know, as has been pointed out by numerous people here, we 
consume 25 percent of the oil and we have two percent of the 
reserves, and so the way we change this situation is to 
actually transition and get substitutes for oil in the sense 
that--and this is a long-term thing so we have got to start 
immediately but the electrification----
    Mr. Cravaack. Sir, in our current situation right now, 
would we be able to man and fuel our fleets if the sea lanes 
were shut down?
    Chairman Hall. A yes or no answer would do.
    Secretary Chu. We have a Strategic Petroleum Reserve, which 
is intended for emergencies like this.
    Mr. Cravaack. Is it sustainable?
    Secretary Chu. I think it is sustainable in enough time for 
our Navy to clear and open up the sea lanes.
    Mr. Cravaack. I would beg to differ. Thank you very much 
for your time.
    I appreciate the indulgence. I will yield back my negative 
balance. Thank you.
    Chairman Hall. You don't have a bad negative balance. Some 
good questions. Thank you.
    Mr. Tonko, the gentleman from New York.
    Mr. Tonko. Thank you, Chairman Hall, thank you, Ranking 
Member Johnson, for holding today's hearing, and thank you, 
Secretary Chu for your leadership and that of our President on 
clean energy and what you have both described as our ``out-
innovating'' our competitors in a global clean energy race and 
the need to win that race.
    We cannot win the future, however, if we pull the rug out 
from under our Nation's feet. We cannot afford to go backward, 
and yet it seems as though that is certainly what the new 
Majority in this House intends for us to do. According to Mark 
Zandy, former Presidential candidates John McCain's economic 
advisor, the C.R. or ``so be it'' spending bill would destroy 
some 700,000 jobs. Federal Reserve Chair Ben Bernanke said 
yesterday that it would cost at least a couple of hundred 
thousand jobs, a number called ``not trivial.'' So it is with 
that background that I approach you in this hearing today.
    Mr. Secretary, skyrocketing gasoline prices are deeply 
hurting the American public. In the capital district of New 
York, consumers are paying at the pump about $3.57 per gallon. 
Nationally, the average price is about $3.38 per gallon and it 
continues to rise. Due to the continued conflict in North 
Africa and the Middle East, oil is now over $100, as you know, 
per barrel. For every $10-per-barrel rise in the price of oil, 
America sends an additional $40 billion overseas yearly. Plain 
and simple, we must start thinking outside the barrel so as to 
create jobs and protect our national security. We are better 
than the ancient fuel that we put into our vehicles, and I 
believe that with Representative Bartlett's presentation he 
reinforces the efforts to look outside the barrel. Using 19th 
and 20th century oil subsides in this 21st century economy is 
outdated and, in my opinion, foolish. We are literally giving 
away hard-earned taxpayer money to big oil companies, and what 
we get in return is sticker shock at the pump.
    And so instead of cutting subsidies to Big Oil and CEOs 
that are making record profits, we are cutting funding to 
science, funding to innovation, to entrepreneurs and to our 
middle class. The C.R. would slash funding for the Office of 
Energy Efficiency and Renewable Energy budget by more than 35 
percent, rescind American Recovery and Reinvestment Act loan 
guarantee funding for renewable energy projects and cut funding 
for energy efficiency programs that create jobs and reduce 
homeowners' energy costs and carbon pollution.
    Mr. Secretary, do you think it is wise to continue to 
provide handouts to big oil companies, especially as prices at 
the pump continue to skyrocket at a time when we must address 
our debt and deficit?
    Secretary Chu. No, I don't think it is wise. The President 
has called for an end to the oil subsidies, which by his 
reckoning is about $3.5 billion a year. But you also have to 
put that in context, so these are tax break subsidies where the 
profits of the oil companies in 2010 of just the four or five 
major oil companies $75 billion. That is the profit, so the 
revenues are in the hundreds of billions of dollars. So this 
$3.5 or $3.9 billion subsidy is a little dimple on the overall 
economics of oil and the cost of oil that I think the American 
people should recognize. If you are making $75 billion--and 
those are only the five majors. If you are making $75 billion, 
if you add them up in total, it could be $100 billion. Three 
point nine is not a big deal.
    And so it won't have an effect on prices, and this is what 
our program has been in the past two years, you know, higher 
mileage standards, electrification of vehicles, do everything 
you can to develop biofuels that would be substitutes for the 
oil. So we diversify our transportation fuel supply. And when 
we get electric vehicles or gas vehicles, natural gas-powered 
vehicles, this is energy produced in the United States so 
wealth remains in the United States, another big plus. So this 
is the plan. We have got to decrease our dependency on oil and 
diversify. Our transportation needs are almost exclusively 
dependent on oil and we have got to diversify that, otherwise 
we still will be hostage to these very unstable prices.
    Mr. Tonko. Thank you. And according to the office of EERE, 
the number of fuel cell and hydrogen megawatts shipped by nine 
U.S. companies has increased by 40 percent in just one year, 
and yet in my opinion the budget does not provide enough 
funding for this critical technology. It is a proven technology 
including some companies within the United States such as those 
used for forklift applications that are commercially deployed 
today. In your opinion, is there a role for fuel cells in 
complementing renewable and traditional fuels?
    Secretary Chu. Yes, there are, and we are trying to--these 
are decisions--especially if you look at forklifts, there are 
three alternatives. There is natural gas power for forklifts, 
there is electric vehicles and then there are fuel cells. And 
so we are looking very closely. All those are lower pollution 
so especially in a city environment or building environment, 
they are very clean.
    In the longer range, and we are also looking very closely 
what the automobile manufacturers are doing in fuel cells. It 
all depends on what the battery technology is because for the 
longer range, a fuel cell is an option. Ultimately we still 
have to solve the hydrogen source problem. Right now, most of 
our hydrogen comes from re-forming natural gas, and then you 
still have the carbon dioxide from that natural gas, and so we 
are also investing in research that says--very innovative 
research--sunlight directly into hydrogen in a very low-cost 
application. If you can do that, then the major hurdle is where 
are we going to get the hydrogen.
    Mr. Tonko. Mr. Chairman, I have a couple other questions 
that I will enter through the Committee after the hearing.
    Chairman Hall. I thank you for it.
    Mr. Tonko. Thank you.
    Chairman Hall. I would like to submit this article from the 
Wall Street Journal that describes how companies like Whirlpool 
and GE have banked enough green energy credits so that they 
will not have to pay corporate taxes for years. I offer this as 
a response to the claim that the Administration is not picking 
winners and losers, particularly when the President suggests 
increased taxes on oil and gas. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Hall. The chair recognizes Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. You saved the best 
until last.
    Dr. Chu, I appreciate all your work, especially in these 
especially difficult times at this point. I know you share my 
concerns about the rapidly rising costs of our dependence on 
imported oil, and I think part of the solution to our energy 
problems is the use of nuclear power along with vehicle 
electrification. That is why I was particularly interested in a 
portion of your written testimony that discusses cost-shared 
activities with industry. It might help accelerate commercial 
deployment of small modular reactors, and I know that you have 
answered a number of questions on this and addressed this 
already, so I just want to say specifically on SMRs, I think 
the budget is a good start, though I would like to see an even 
greater commitment to SMRs, but I know this is the first time 
that DOE has actually--really put an effort and put the funding 
behind helping to move these forward, and I would like to see 
more of that in the future.
    One other area, though, when it comes to nuclear power that 
I am concerned about is that much of our skilled workforce is 
near retirement and this includes skilled tradesmen and -women, 
technicians as well as scientists and engineers including 
thousands that work in your agency. So I just want to ask what 
action is DOE taking to ensure that there is sufficient skilled 
craftsmen and technicians to build America's clean energy 
facilities and staff U.S. manufacturing facilities? Do you 
think that we are doing enough on this?
    Secretary Chu. I don't think we are doing enough but I 
think people enter into job training and enter into, you know--
make choices in undergraduate, graduate school based on where 
they think they can get jobs so ultimately it is very important 
that the United States show signs that it can restart the 
nuclear industry domestically at home, which means you build 
more reactors. We were able to build--over a 20-year period, we 
essentially started the entire fleet of nuclear reactors we 
have today, over 100 were started within a 20-year period. 
There was a long tail of finishing but never mind that. So I 
think it is clear that the United States is willing to make the 
investments in nuclear reactors here in the United States, and 
again, the clean energy standard would be a major driver to 
allow that to occur because it is a form of clean energy.
    Then I think the supply lines, the trades people you talked 
about, the engineers that would be needed in order to do this, 
that all becomes part of the process. As long as you see that--
and that is why other countries want to stimulate the 
production of new energy and new energy infrastructure because 
all those things, then all the manufacturing capabilities are 
usually built domestically because it doesn't make sense to set 
up a very long supply chain, especially for the heavy products.
    And so the clean energy standard would be the single-most 
important thing you could say we are serious about reinvesting 
in the United States power infrastructure and that would 
include nuclear reactors, and all the other training and 
everything will follow suit because they say I have a job.
    Mr. Lipinski. I would like to go further with you on that, 
but at this moment with the time I have left, I want to ask 
about one other area. I was excited to see that the President's 
budget shows a clear commitment to developing a more 
sustainable industrial sector in the United States as evidenced 
by the significant increase in the Industrial Technologies 
Program, which helps manufacturers become more efficient. I 
know the ITP program, especially the Industries of the Future 
subprogram, has helped the American steel industry dramatically 
reduce its energy consumption while increasing production. How 
would the proposed increase in ITP and similar programs 
contribute to the long-term viability of manufacturing in our 
country?
    Secretary Chu. I think it would be a great help. I think a 
number of companies have bitten the bullet either with help 
from the Federal Government or they did it on their own where 
energy-intensive companies--Dow Chemical is a perfect example 
of that where here is a company that--it takes carbon in the 
form of oil and natural gas typically and converts it into 
another form of carbon turns plastic, and it is a very heavily 
energy-intensive transformation from one form of carbon to the 
other, and so they are able to save tens of millions of dollars 
a year now by driving to very high efficiencies, Dupont 
similarly. So many, many companies are realizing you make 
investments in energy efficiency in their industrial practices 
and it is really good for the bottom line. I don't know whether 
it is tens or hundreds of millions of dollars, I forget, but it 
is a tremendous amount of money, very rapid return in capital, 
all good things.
    And so anything that the United States can do to help 
companies make the transition to save money by saving energy, 
it would be a very good thing.
    Mr. Lipinski. One last thing. As the author of the H-Prize, 
I was very happy to hear what you said in the answer to the 
last question about the great potential advances in producing 
hydrogen besides from natural gas. Thank you again for all your 
work.
    I yield back.
    Chairman Hall. Thank you for your yield back, and I 
certainly thank Dr. Chu for his very valuable testimony and the 
members for their questions. I apologize for not running a more 
youthful chair. I will try to do better. And I am going to give 
Mr. Sarbanes half of my time when we meet on the next occasion 
here, half of my opening statement to him where he will be 
assured that he will get to ask questions.
    And you have been so generous with your answers. The 
members of the Committee may have additional questions for you, 
and if you will, we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments.
    Dr. Chu, you and your fine staff are to be certainly 
thanked for your accommodation of your time and the time it 
took to prepare and the time it took for you to come over here. 
I know you have been away from a very valuable job now for the 
last couple of hours with us, and we thank you. This hearing 
is----
    Ms. Johnson. Mr. Chairman.
    Chairman Hall. --not adjourned until Mrs. Johnson gets to 
say what she wants to say.
    Ms. Johnson. Thank you, Mr. Chairman. I want to thank Dr. 
Chu, but I would like to request unanimous consent to enter two 
articles in the record, one by George Will in reference to a 
scientific engine and one by Morton Kondracke, who talks about 
the American's seed corn.
    Chairman Hall. Without objection, they are admitted.
    Ms. Johnson. Thank you.

    [The information appears in the Apendix:]

    Chairman Hall. We are adjourned. Thank you.
    Secretary Chu. Thank you, Mr. Chairman.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions



Responses by Dr. Steven Chu, Secretary, Department of Energy

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.090

[GRAPHIC] [TIFF OMITTED] T5049.091

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.001

[GRAPHIC] [TIFF OMITTED] T5049.002

[GRAPHIC] [TIFF OMITTED] T5049.003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.004

[GRAPHIC] [TIFF OMITTED] T5049.005

[GRAPHIC] [TIFF OMITTED] T5049.006

[GRAPHIC] [TIFF OMITTED] T5049.007

[GRAPHIC] [TIFF OMITTED] T5049.092

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.008

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.009

[GRAPHIC] [TIFF OMITTED] T5049.010

[GRAPHIC] [TIFF OMITTED] T5049.011

[GRAPHIC] [TIFF OMITTED] T5049.012

[GRAPHIC] [TIFF OMITTED] T5049.013

[GRAPHIC] [TIFF OMITTED] T5049.014

[GRAPHIC] [TIFF OMITTED] T5049.015

[GRAPHIC] [TIFF OMITTED] T5049.016

[GRAPHIC] [TIFF OMITTED] T5049.017

[GRAPHIC] [TIFF OMITTED] T5049.018

[GRAPHIC] [TIFF OMITTED] T5049.019

[GRAPHIC] [TIFF OMITTED] T5049.093

[GRAPHIC] [TIFF OMITTED] T5049.094

[GRAPHIC] [TIFF OMITTED] T5049.095

[GRAPHIC] [TIFF OMITTED] T5049.096

[GRAPHIC] [TIFF OMITTED] T5049.097

[GRAPHIC] [TIFF OMITTED] T5049.098

[GRAPHIC] [TIFF OMITTED] T5049.099

[GRAPHIC] [TIFF OMITTED] T5049.100

[GRAPHIC] [TIFF OMITTED] T5049.101

[GRAPHIC] [TIFF OMITTED] T5049.102

[GRAPHIC] [TIFF OMITTED] T5049.103

[GRAPHIC] [TIFF OMITTED] T5049.021

[GRAPHIC] [TIFF OMITTED] T5049.020

[GRAPHIC] [TIFF OMITTED] T5049.104

[GRAPHIC] [TIFF OMITTED] T5049.105

[GRAPHIC] [TIFF OMITTED] T5049.106

[GRAPHIC] [TIFF OMITTED] T5049.107

[GRAPHIC] [TIFF OMITTED] T5049.108

[GRAPHIC] [TIFF OMITTED] T5049.109

[GRAPHIC] [TIFF OMITTED] T5049.110

[GRAPHIC] [TIFF OMITTED] T5049.111

[GRAPHIC] [TIFF OMITTED] T5049.022

 [GRAPHIC] [TIFF OMITTED] T5049.023

[GRAPHIC] [TIFF OMITTED] T5049.024

[GRAPHIC] [TIFF OMITTED] T5049.025

[GRAPHIC] [TIFF OMITTED] T5049.026

[GRAPHIC] [TIFF OMITTED] T5049.027

[GRAPHIC] [TIFF OMITTED] T5049.028

[GRAPHIC] [TIFF OMITTED] T5049.029

[GRAPHIC] [TIFF OMITTED] T5049.030

[GRAPHIC] [TIFF OMITTED] T5049.031

[GRAPHIC] [TIFF OMITTED] T5049.032

[GRAPHIC] [TIFF OMITTED] T5049.033

[GRAPHIC] [TIFF OMITTED] T5049.034

[GRAPHIC] [TIFF OMITTED] T5049.035

[GRAPHIC] [TIFF OMITTED] T5049.036

[GRAPHIC] [TIFF OMITTED] T5049.037

[GRAPHIC] [TIFF OMITTED] T5049.038

[GRAPHIC] [TIFF OMITTED] T5049.039

[GRAPHIC] [TIFF OMITTED] T5049.040

[GRAPHIC] [TIFF OMITTED] T5049.041

[GRAPHIC] [TIFF OMITTED] T5049.042

[GRAPHIC] [TIFF OMITTED] T5049.043

[GRAPHIC] [TIFF OMITTED] T5049.044

[GRAPHIC] [TIFF OMITTED] T5049.045

[GRAPHIC] [TIFF OMITTED] T5049.046

[GRAPHIC] [TIFF OMITTED] T5049.047

[GRAPHIC] [TIFF OMITTED] T5049.112

[GRAPHIC] [TIFF OMITTED] T5049.113

[GRAPHIC] [TIFF OMITTED] T5049.114

[GRAPHIC] [TIFF OMITTED] T5049.115

[GRAPHIC] [TIFF OMITTED] T5049.116

[GRAPHIC] [TIFF OMITTED] T5049.117

[GRAPHIC] [TIFF OMITTED] T5049.048

[GRAPHIC] [TIFF OMITTED] T5049.118

[GRAPHIC] [TIFF OMITTED] T5049.049

[GRAPHIC] [TIFF OMITTED] T5049.050

[GRAPHIC] [TIFF OMITTED] T5049.051

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.119

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.120

[GRAPHIC] [TIFF OMITTED] T5049.121

[GRAPHIC] [TIFF OMITTED] T5049.122

[GRAPHIC] [TIFF OMITTED] T5049.123

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.124

[GRAPHIC] [TIFF OMITTED] T5049.125

[GRAPHIC] [TIFF OMITTED] T5049.126

[GRAPHIC] [TIFF OMITTED] T5049.127

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.128

[GRAPHIC] [TIFF OMITTED] T5049.129

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.052

[GRAPHIC] [TIFF OMITTED] T5049.053

[GRAPHIC] [TIFF OMITTED] T5049.054

[GRAPHIC] [TIFF OMITTED] T5049.130

[GRAPHIC] [TIFF OMITTED] T5049.131

[GRAPHIC] [TIFF OMITTED] T5049.055

[GRAPHIC] [TIFF OMITTED] T5049.056

[GRAPHIC] [TIFF OMITTED] T5049.057

[GRAPHIC] [TIFF OMITTED] T5049.058

[GRAPHIC] [TIFF OMITTED] T5049.059

[GRAPHIC] [TIFF OMITTED] T5049.060

[GRAPHIC] [TIFF OMITTED] T5049.061

[GRAPHIC] [TIFF OMITTED] T5049.062

[GRAPHIC] [TIFF OMITTED] T5049.063

[GRAPHIC] [TIFF OMITTED] T5049.064

[GRAPHIC] [TIFF OMITTED] T5049.132

[GRAPHIC] [TIFF OMITTED] T5049.133

[GRAPHIC] [TIFF OMITTED] T5049.134

[GRAPHIC] [TIFF OMITTED] T5049.135

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.136

[GRAPHIC] [TIFF OMITTED] T5049.065

[GRAPHIC] [TIFF OMITTED] T5049.066

[GRAPHIC] [TIFF OMITTED] T5049.067

[GRAPHIC] [TIFF OMITTED] T5049.068

[GRAPHIC] [TIFF OMITTED] T5049.069

[GRAPHIC] [TIFF OMITTED] T5049.137

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.070

[GRAPHIC] [TIFF OMITTED] T5049.138

[GRAPHIC] [TIFF OMITTED] T5049.139

[GRAPHIC] [TIFF OMITTED] T5049.140

[GRAPHIC] [TIFF OMITTED] T5049.071

[GRAPHIC] [TIFF OMITTED] T5049.141

[GRAPHIC] [TIFF OMITTED] T5049.142

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.143

[GRAPHIC] [TIFF OMITTED] T5049.144

[GRAPHIC] [TIFF OMITTED] T5049.145

[GRAPHIC] [TIFF OMITTED] T5049.146

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.147

[GRAPHIC] [TIFF OMITTED] T5049.072

[GRAPHIC] [TIFF OMITTED] T5049.073

[GRAPHIC] [TIFF OMITTED] T5049.074

[GRAPHIC] [TIFF OMITTED] T5049.075

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.148

[GRAPHIC] [TIFF OMITTED] T5049.149

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.150

[GRAPHIC] [TIFF OMITTED] T5049.076

[GRAPHIC] [TIFF OMITTED] T5049.077

[GRAPHIC] [TIFF OMITTED] T5049.078

[GRAPHIC] [TIFF OMITTED] T5049.079

[GRAPHIC] [TIFF OMITTED] T5049.080

[GRAPHIC] [TIFF OMITTED] T5049.081

[GRAPHIC] [TIFF OMITTED] T5049.082

[GRAPHIC] [TIFF OMITTED] T5049.083

[GRAPHIC] [TIFF OMITTED] T5049.084

[GRAPHIC] [TIFF OMITTED] T5049.151

[GRAPHIC] [TIFF OMITTED] T5049.152

[GRAPHIC] [TIFF OMITTED] T5049.153

[GRAPHIC] [TIFF OMITTED] T5049.154

[GRAPHIC] [TIFF OMITTED] T5049.085

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T5049.086

[GRAPHIC] [TIFF OMITTED] T5049.155

[GRAPHIC] [TIFF OMITTED] T5049.156

[GRAPHIC] [TIFF OMITTED] T5049.157

                              Appendix II:

                              ----------                              


                   Additional Material for the Record


             Submitted Materials by Ranking Member Johnson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Submitted Statement by Representative Jerry Costello
    Mr. Chairman, thank you for holding today's hearing on the 
Department of Energy's (DOE's) Fiscal Year 2012 (FY12) research and 
development budget request.
    The DOE's FY12 budget requests $29.5 billion, an 11.8% increase 
over the enacted Fiscal Year 2010 levels. One-third of this funding is 
requested for R&D programs across the department to develop, 
demonstrate, and deploy new energy technology. While I have concerns 
about some proposed cuts, overall this budget will keep the U.S. on a 
path to achieving energy independence and maintain our leadership in 
energy innovation.
    First, I am pleased to see DOE's expansion of the Energy Innovation 
Hubs to pursue energy research from its earliest stages to commercial 
deployment. The FY12 budget would add a new Batteries and Energy 
Storage Hub, which will build on the remarkable energy storage work 
done by Argonne National Laboratory in Illinois. The development of new 
energy storage is critical to improving the efficiency of our vehicle 
fleet, buildings, and national grid. This new investment, combined with 
a substantial increase in funding for the Energy Storage subprogram, 
will ensure we continue to lead the world in the development of energy 
storage technology.
    Second, DOE's budget provides nearly $1 billion in new funding for 
the Office of Energy Efficiency and Renewable Energy. In particular, 
the FY12 budget provides $340 million, a 56% increase, for the ongoing 
development and deployment of cost effective and high-performance 
biomass fuels, including $150 million for new cellulosic ethanol 
demonstration projects. This funding reflects a shift in DOE's focus 
from integrated biorefinery projects and feedstock production trials to 
larger-scale demonstration projects and commercial deployment. 
Improving and expanding the use of biofuels will reduce our dependence 
on foreign oil, lower our emissions, and create millions of American 
jobs. I am interested in hearing from Dr. Chu what impact these changes 
in funding will have on the use of ethanol, biodiesel, and other 
biomass fuels.
    Finally, I have concerns about the administration's 31 percent 
decrease in funding for fossil energy R&D. I am a strong supporter of 
investing in renewable fuels, but it is imperative that we develop a 
balanced energy policy that continues to invest in the clean use of 
coal. In 2010, President Obama announced his strong support for clean 
coal technology and committed to establishing at least 10 clean coal 
demonstration projects by 2016. Further, in August 2010, a multi-agency 
task force released a report indicating there were no insurmountable 
roadblocks to deploying carbon capture and storage (CCS) technology on 
a commercial scale. Despite this support for moving clean coal forward, 
the FY12 budget cuts funding $100 million from coal R&D and eliminates 
three ongoing clean coal research programs at DOE.
    Coal is and will remain our major energy source for years to come, 
and we must demonstrate we can cleanly use it. Investing in clean coal 
now is imperative to continue providing dependable, affordable, and 
efficient energy while we bring new sources of energy online.
    I welcome Secretary Chu, and I look forward to his testimony. Thank 
you again, Mr. Chairman.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
